APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the Supreme Court of
Wisconsin
(January 7, 2021) . . . . . . . . . . . . . . . . 1a
Appendix B Opinion of the Court of Appeals,
District I, State of Wisconsin
(April 4, 2019) . . . . . . . . . . . . . . . . . . 91a
Appendix C Decision and Order Denying Motion
for Postconviction Relief, State of
Wisconsin Circuit Court, Milwaukee
County, Branch 42
(March 8, 2018) . . . . . . . . . . . . . . . . . 97a

1a

APPENDIX A
2021 WI 1
SUPREME COURT OF WISCONSIN
CASE NO.: 2018AP594-CR
[Filed: January 7, 2021]
COMPLETE TITLE:
_____________________________________________
State of Wisconsin,
)
Plaintiff-Respondent,
)
v.
)
Leevan Roundtree,
)
Defendant-Appellant-Petitioner.
)
_____________________________________________)
REVIEW OF DECISION OF THE COURT OF APPEALS
Reported at 387 Wis. 2d 685, 928 N.W.2d 806
(2019 – unpublished)
__________________________________________________
OPINION FILED:

January 7, 2021

SUBMITTED ON BRIEFS:
ORAL ARGUMENT:
September 11, 2020
__________________________________________________
SOURCE OF APPEAL:
COURT:

Circuit

COUNTY:

Milwaukee

2a
JUDGE:

William S. Pocan & David A.
Hansher
__________________________________________________
JUSTICES:
ANN WALSH BRADLEY, J., delivered the majority
opinion of the Court, in which ROGGENSACK, C.J.,
ZIEGLER, DALLET, and KAROFSKY, JJ., joined.
DALLET, J., filed a concurring opinion, in which ANN
WALSH BRADLEY and KAROFSKY, JJ., joined.
REBECCA GRASSL BRADLEY, J., filed a dissenting
opinion. HAGEDORN, J., filed a dissenting opinion.
NOT PARTICIPATING:
__________________________________________________
ATTORNEYS:
For the defendant-appellant-petitioner, there were
briefs filed by Kaitlin A. Lamb assistant state public
defender. There was an oral argument by Kaitlin A.
Lamb.
For the plaintiff-respondent, there was a brief filed
by Sarah L. Burgundy¸ assistant attorney general; with
whom on the brief was Joshua L. Kaul, attorney
general. There was an oral argument by Sarah L.
Burgundy.
No. 2018AP594-CR
(L.C. No.
2015CF4729)
STATE OF WISCONSIN :

IN SUPREME COURT

3a
__________________________________________________
FILED
JAN 7, 2021
Sheila T. Reiff
Clerk of Supreme Court
State of Wisconsin,
Plaintiff-Respondent,
v.
Leevan Roundtree,
Defendant-Appellant-Petitioner.
__________________________________________________
ANN WALSH BRADLEY, J., delivered the majority
opinion of the Court, in which ROGGENSACK, C.J.,
ZIEGLER, DALLET, and KAROFSKY, JJ., joined.
DALLET, J., filed a concurring opinion, in which ANN
WALSH BRADLEY and KAROFSKY, JJ., joined.
REBECCA GRASSL BRADLEY, J., filed a dissenting
opinion. HAGEDORN, J., filed a dissenting opinion.
__________________________________________________
REVIEW of a decision of the Court of Appeals.
Affirmed.
¶1 ANN WALSH BRADLEY, J. The petitioner,
Leevan Roundtree, seeks review of an unpublished per
curiam decision of the court of appeals affirming his
judgment of conviction and the denial of his motion for

4a
postconviction relief. 1 He asserts that the
felon-in-possession statute under which he was
convicted is unconstitutional as applied to him.
¶2 Specifically, Roundtree contends that
Wisconsin’s lifetime firearm ban for all felons is
unconstitutional as applied to him because his
conviction over ten years ago for failure to pay child
support does not justify such a ban. He maintains that
the conviction was for a nonviolent felony and that no
public safety objective is served by preventing him from
owning a firearm.
¶3 The parties disagree as to the level of scrutiny
that we should employ to resolve this constitutional
challenge. Roundtree advances that we should subject
the statute to the requirements of a strict scrutiny
review. The State counters that the application of
intermediate scrutiny is consistent with precedent.
¶4 We determine that Roundtree’s challenge to the
felon-in-possession statute (Wis. Stat. § 941.29(2)
(2013-14)2) requires the application of an intermediate
level of scrutiny. Under such an intermediate scrutiny
1

State v. Roundtree, No. 2018AP594-CR, unpublished slip op.
(Wis. Ct. App. Apr. 4, 2019) (per curiam) (affirming the judgment
and order of the circuit court for Milwaukee County, William S.
Pocan and David A. Hansher, Judges).
2

All subsequent references to the Wisconsin Statutes are to the
2013-14 version unless otherwise indicated.
Although Roundtree was convicted pursuant to Wis. Stat.
§ 941.29(2), that subsection has since been repealed, with the
substance of the former § 941.29(2) now residing in Wis. Stat.
§ 941.29(1m) (2017-18). See 2015 Wis. Act 109, §§ 6, 8.

5a
analysis, we conclude that his challenge fails. The
statute is constitutional as applied to Roundtree
because it is substantially related to important
governmental objectives, namely public safety and the
prevention of gun violence.
¶5 Accordingly, we affirm the decision of the court
of appeals.
I
¶6 In 2003, Roundtree was convicted of multiple
felony counts of failure to support a child for more than
120 days.3 As a consequence of these felony convictions,
Roundtree was, and continues to be, permanently
prohibited from possessing a firearm.
¶7 Milwaukee police executed a search warrant at
Roundtree’s home on October 30, 2015. Under his
mattress, officers located a revolver and ammunition.
A record check of the recovered gun revealed that it
had been stolen in Texas. Roundtree claimed that “he
purchased the firearm from a kid on the street about a
year ago, but that he did not know it was stolen.”
¶8 The State charged Roundtree with a single count
of possession of a firearm by a felon contrary to Wis.
Stat. § 941.29(2). He pleaded guilty and was
subsequently sentenced to 18 months of initial
confinement and 18 months of extended supervision.
¶9 Roundtree moved for postconviction relief,
arguing that Wis. Stat. § 941.29(2), the
felon-in-possession statute, was unconstitutional as
3

See Wis. Stat. § 948.22(2) (2003-04).

6a
applied to him. The circuit court held the motion in
abeyance pending the United States Supreme Court’s
decision in Class v. United States, 138 S. Ct. 798, 803
(2018), which determined that a federal criminal
defendant does not waive a constitutional challenge to
the statute of conviction on direct appeal by entering a
guilty plea.4
¶10 After the issuance of the Class opinion, the
circuit court ultimately determined that Roundtree
waived his constitutional challenge by entering a guilty
plea. Consequently, the circuit court denied
Roundtree’s motion for postconviction relief.5
¶11 Roundtree appealed, and the court of appeals
affirmed, albeit on different grounds. State v.
Roundtree, No. 2018AP594-CR, unpublished slip op.
(Wis. Ct. App. Apr. 4, 2019) (per curiam). Instead of
resting on the guilty plea waiver rule, the court of
appeals determined that “regardless of whether
Roundtree forfeited the constitutional argument by
entering a guilty plea, . . . the argument fails on its
merits.” Id., ¶5. By way of explanation on the merits,
the court of appeals expounded, “Roundtree’s notion
that his particular nonviolent felony matters is

4

The “guilty plea waiver rule” refers to the general rule that a
guilty, no contest, or Alford plea waives all nonjurisdictional
defects, including constitutional claims. State v. Kelty, 2006 WI
101, ¶18, 294 Wis. 2d 62, 716 N.W.2d 886; see North Carolina v.
Alford, 400 U.S. 25 (1970).
5

The order denying the postconviction motion was entered by the
Honorable David A. Hansher. The Honorable William S. Pocan
accepted Roundtree’s plea and entered the judgment of conviction.

7a
incorrect. Rather, it is settled law that the firearm ban
applies regardless of the defendant’s particular felony.”
Id., ¶7. Like the court of appeals, we, too, determine
that Roundtree’s argument fails on its merits, and
therefore we need not address whether he waived his
constitutional challenge.6
II
¶12 Roundtree asks us to review whether Wis. Stat.
§ 941.29(2) is unconstitutional as applied to him.
Examining the constitutional application of a statute
presents a question of law that this court reviews
independently of the determinations rendered by the
circuit court or court of appeals. State v. McGuire, 2010
WI 91, ¶25, 328 Wis. 2d 289, 786 N.W.2d 227.
¶13 In our review, we must also determine the
appropriate level of scrutiny to guide our analysis. This
issue likewise presents a question of law that we
determine independently. See Brandmiller v. Arreola,
199 Wis. 2d 528, 536-37, 540-41, 544 N.W.2d 894
(1996).
III

6

Roundtree contends that Wisconsin’s use of the guilty plea waiver
rule was altered by the Court’s recent decision in Class v. United
States, 138 S. Ct. 798 (2018). The Class Court determined that a
guilty plea by itself does not bar a federal criminal defendant from
challenging the constitutionality of the statute of conviction on
direct appeal. Id. at 803. Roundtree asserts that, like the
defendant in Class, he should be allowed to challenge the
government’s power to criminalize his conduct in spite of his guilty
plea. The State disagrees, arguing that Class applies in federal
court only and that it does not extend to as-applied challenges.

8a
¶14 We begin by setting forth Roundtree’s argument
and some necessary background regarding the
individual right to bear arms. Subsequently, we
determine the level of scrutiny under which we
examine the felon-in-possession statute. Finally, we
apply the appropriate level of scrutiny.
A
¶15 Roundtree was convicted of possession of a
firearm by a felon contrary to Wis. Stat. § 941.29(2)(a),
which provides that a person convicted of a felony in
this state “is guilty of a Class G felony if he or she
possesses a firearm under any of the following
circumstances . . . .” The circumstance applicable here
is that “[t]he person possesses a firearm subsequent to
the conviction for the felony or other crime, as specified
in sub. (1)(a) or (b).” § 941.29(2)(a).
¶16 This statute, as Roundtree correctly observes,
bars a person convicted of any felony from firearm
possession after that conviction without exception, with
no time limitation, and with no mechanism for
restoration of the right to possess a firearm. The
statute does not draw any distinctions among felonies.
Those convicted of less serious felonies are banned from
possessing firearms just as are those convicted of the
most serious felonies.
¶17 In Roundtree’s estimation, this statutory
scheme is unconstitutional as applied to him. There are
two major types of constitutional challenges: facial and
as-applied. Michels v. Lyons, 2019 WI 57, ¶11, 387 Wis.
2d 1, 927 N.W.2d 486. A party challenging a law as

9a
unconstitutional on its face must show that the law
cannot be constitutionally enforced under any
circumstances. Id. (citation omitted).
¶18 In contrast, in an as-applied challenge, the
court assesses the merits of the challenge by
considering the facts of the particular case before it.
State v. Wood, 2010 WI 17, ¶13, 323 Wis. 2d 321, 780
N.W.2d 63. For an as-applied challenge to succeed, the
challenger must demonstrate that the challenger’s
constitutional rights were actually violated. Id. If such
a violation occurred, the operation of the law is void as
to the facts presented for the party asserting the claim.
Id. We presume that the statute is constitutional, and
the party raising a constitutional challenge must prove
that the challenged statute has been applied in an
unconstitutional manner beyond a reasonable doubt.
Id., ¶15.
¶19 Roundtree’s as-applied challenge is based on
the contention that his conviction for failure to pay
child support is a nonviolent felony and thus is
insufficient to curtail his constitutional right to bear
arms. He argues that “[d]isarming [him] does not in
any way advance public safety, but deprives him of his
right to keep and bear arms for self-defense.” As this is
an as-applied challenge, he must demonstrate that his
constitutional rights specifically were violated, not that
the statute is unconstitutional in all applications.
B
¶20 We begin our assessment of Roundtree’s claim
with some background on the right to bear arms. Both
the United States and Wisconsin Constitutions provide

10a
for this right. U.S. Const. amend. II; Wis. Const. art. I,
§ 25.7
¶21 The United States Supreme Court has made
clear that “[l]ike most rights, the right secured by the
Second Amendment is not unlimited.” District of
Columbia v. Heller, 554 U.S. 570, 626 (2008). The same
is true of the right provided by our State Constitution.
Moran v. DOJ, 2019 WI App 38, ¶48, 388 Wis. 2d 193,
932 N.W.2d 430. Indeed, the Second Amendment
secures “the right of law-abiding, responsible citizens
to use arms in defense of hearth and home.” Heller, 554
U.S. at 635.
¶22 In Heller, the Court struck down a regulation
barring residential handgun possession as contrary to
the Second Amendment. Id. In doing so, the Court
observed “that the Second Amendment conferred an
individual right to keep and bear arms.” Id. at 595. It
was careful, however, to delineate the reach of its
analysis:
[N]othing in our opinion should be taken to cast
doubt on longstanding prohibitions on the
possession of firearms by felons and the
mentally ill, or laws forbidding the carrying of
firearms in sensitive places such as schools and
government buildings, or laws imposing

7

The Second Amendment to the United States Constitution
provides: “A well regulated Militia, being necessary to the security
of a free State, the right of the people to keep and bear Arms, shall
not be infringed.” Its Wisconsin counterpart, art. I, § 25, sets forth:
“The people have the right to keep and bear arms for security,
defense, hunting, recreation or any other lawful purpose.”

11a
conditions and qualifications on the commercial
sale of arms.
Id. at 626-27.
¶23 The Court identified such regulations as
“presumptively lawful,” id. at 627 n.26, and reiterated
the same assessment two years later in McDonald v.
City of Chicago, 561 U.S. 742, 786 (2010) (“We made it
clear in Heller that our holding did not cast doubt on
such longstanding regulatory measures as ‘prohibitions
on the possession of firearms by felons and the
mentally ill,’ ‘laws forbidding the carrying of firearms
in sensitive places such as schools and government
buildings, or laws imposing conditions and
qualifications on the commercial sale of arms.’ We
repeat those assurances here.”) (internal citations
omitted).
¶24 It is the juxtaposition of the United States
Supreme Court’s stated limitations on the Second
Amendment individual right to bear arms, as well as
the felon-in-possession statute’s presumed lawfulness,
that guides our analysis.
IV
A
¶25 With this necessary background in hand, we
next identify the appropriate level of scrutiny that
frames our analysis.
¶26 The parties here disagree as to the level of
means-end scrutiny that should be applied. Roundtree
contends that we should subject Wis. Stat. § 941.29(2)

12a
to strict scrutiny. He bases this argument on language
in the Seventh Circuit’s decision in Ezell v. City of
Chicago which indicates that “the rigor of . . . judicial
review will depend on how close the law comes to the
core of the Second Amendment right and the severity
of the law’s burden on the right.” Ezell v. City of
Chicago, 651 F.3d 684, 703 (7th Cir. 2011). Under this
framework, Roundtree argues that § 941.29(2) severely
burdens the core of the Second Amendment right
because it completely restricts the right to bear arms,
thus necessitating strict scrutiny review.
¶27 In order to survive strict scrutiny, a statute
must be narrowly tailored to advance a compelling
state interest. Monroe Cnty. Dep’t of Human Servs. v.
Kelli B., 2004 WI 48, ¶17, 271 Wis. 2d 51, 678 N.W.2d
831. Strict scrutiny is an exacting standard, and it is
the rare case in which a law survives it. State v. Baron,
2009 WI 58, ¶48, 318 Wis. 2d 60, 769 N.W.2d 34.
¶28 The State disagrees and advocates for the
application of intermediate scrutiny. In the State’s
view, such an application would be consistent with the
language of Heller and its interpretation by both the
court of appeals of this state and the Seventh Circuit.
See State v. Pocian, 2012 WI App 58, ¶11, 341 Wis. 2d
380, 814 N.W.2d 894 (citing United States v. Skoien,
614 F.3d 638, 639, 641-42 (7th Cir. 2010) (en banc) (“In
a case decided after Heller and McDonald, the Seventh
Circuit Court of Appeals utilized an ‘intermediate
scrutiny’ analysis and applied it to a constitutional
challenge to a federal law prohibiting an individual
convicted of misdemeanor domestic violence from
carrying a firearm in or affecting interstate

13a
commerce.”). Pursuant to an intermediate scrutiny
analysis, we ask whether a law is substantially related
to an important governmental objective. Id.
¶29 We agree with the State that intermediate
scrutiny is the appropriate inquiry to guide our
analysis. First, Heller clearly requires more than mere
rational basis review of laws that are alleged to burden
Second Amendment rights. Heller, 554 U.S. at 628
n.27. “If all that was required to overcome the right to
keep and bear arms was a rational basis, the Second
Amendment would be redundant with the separate
constitutional prohibitions on irrational laws, and
would have no effect.” Id.
¶30 Second, the intermediate scrutiny approach
lends vitality to the Heller court’s statement that felon
dispossession statutes are “presumptively lawful.”
Kanter v. Barr, 919 F.3d 437, 448 (7th Cir. 2019). To
subject a “presumptively lawful” statute to strict
scrutiny would in effect remove the operation of such a
presumption. As stated, strict scrutiny is a steep hill to
climb.
¶31 Our conclusion is consistent with that of other
courts that have considered the question. Indeed,
federal courts around the country have interpreted the
above-cited language from Heller as indicative of
requiring an intermediate scrutiny analysis when
examining Second Amendment challenges. See, e.g.,
Skoien, 614 F.3d at 641-42; Kanter, 919 F.3d at 448;
United States v. Marzzarella, 614 F.3d 85, 97 (3d Cir.
2010).

14a
¶32 The Wisconsin Court of Appeals has taken the
same approach. In both Pocian, 341 Wis. 2d 380,
¶¶11-12, and State v. Culver, 2018 WI App 55, ¶37, 384
Wis. 2d 222, 918 N.W.2d 103, the court of appeals
applied intermediate scrutiny to as-applied challenges
to the felon-in-possession statute. Support for the use
of intermediate scrutiny is thus plentiful in the case
law and accepting Roundtree’s position would
necessitate overruling both Pocian and Culver, which
we decline to do.
¶33 In contrast, Roundtree points us to no case in
which an appellate court has applied strict scrutiny to
a Second Amendment challenge to a felon-in-possession
statute.8 Absent any such application of strict scrutiny

8

We acknowledge that strict scrutiny has been applied to related
federal statutes, but none of those cases finds purchase here. In
United States v. Engstrum, 609 F. Supp. 2d 1227, 1231-32 (D.
Utah 2009), the District Court applied strict scrutiny to the federal
statute prohibiting firearm possession by a person convicted of a
“misdemeanor crime of domestic violence.” See 18 U.S.C.
§ 922(g)(9). Similarly, in Tyler v. Hillsdale Cnty. Sheriff’s Dep’t,
775 F.3d 308, 328-29 (6th Cir. 2014), reh’g en banc granted,
opinion vacated (Apr. 21, 2015), the Sixth Circuit applied strict
scrutiny to 18 U.S.C. § 922(g)(4)’s dispossession of a person “who
has been committed to a mental institution.”
Tyler largely based its application of strict scrutiny on citation
to separate writings in other cases, and in any event the opinion
has been vacated. Id. at 328-29. Likewise, Engstrum is of little
value here because the restriction it addressed was based on a
misdemeanor, not a felony.

15a
in Wisconsin or elsewhere in this type of case, we
decline to break new ground.9

9

Justice Rebecca Grassl Bradley’s dissent would apply strict
scrutiny, citing this court’s decision in Mayo v. Wisconsin Injured
Patients and Families Compensation Fund, 2018 WI 78, ¶28, 383
Wis. 2d 1, 914 N.W.2d 678. Justice Rebecca Grassl Bradley’s
dissent, ¶¶73-74. However, Mayo is inapplicable here.
In Mayo, an equal protection case regarding the
constitutionality of medical malpractice damage caps, the majority
of the court overruled the “rational basis with teeth” standard from
Ferdon ex rel. Petrucelli v. Wisconsin Patients Compensation
Fund, 2005 WI 125, 284 Wis. 2d 573, 701 N.W.2d 440. Mayo, 383
Wis. 2d 1, ¶32. The “rational basis with teeth” standard from
Ferdon, although similar, is different from intermediate scrutiny.
The Ferdon court set forth that “rational basis with teeth”
“focuses on the legislative means used to achieve the ends. This
standard simply requires the court to conduct an inquiry to
determine whether the legislation has more than a speculative
tendency as the means for furthering a valid legislative purpose.”
Ferdon, 284 Wis. 2d 573, ¶78. Intermediate scrutiny, on the other
hand, asks whether a law is “substantially related to an important
governmental objective.” State v. Pocian, 2012 WI App 58, ¶11, 341
Wis. 2d 380, 814 N.W.2d 894 (citation omitted).
Importantly, the Ferdon court explicitly disclaimed that it was
applying intermediate scrutiny. It stated that rational basis was
the “appropriate level of scrutiny in the present case,” clearly
evidencing a distinction between intermediate scrutiny and
“rational basis with teeth.” See Ferdon, 284 Wis. 2d 573, ¶¶63-65.
Further, the Mayo court specifically stated that it was
addressing levels of scrutiny for equal protection challenges.
Mayo, 383 Wis. 2d 1, ¶28. Roundtree’s challenge is not based on
the equal protection clause, but on a purported abridgement of his
Second Amendment rights.
The intermediate scrutiny standard thus is well established
and retains vitality. In 1996, a unanimous court first adopted and

16a
¶34 We are likewise unpersuaded by the argument
Roundtree makes pursuant to the Seventh Circuit’s
decision in Ezell, 651 F.3d 684. He bases this argument
on the Ezell court’s statement that “the rigor of . . .
judicial review will depend on how close the law comes
to the core of the Second Amendment right and the
severity of the law’s burden on the right.” Id. at 703. In
Roundtree’s view, the felon-in-possession statute
implicates the core Second Amendment right and
severely burdens such a right, necessitating the most
rigorous level of scrutiny.
¶35 However, this argument rests on a faulty
premise. As the Seventh Circuit explained in Kanter,
less than strict scrutiny review is appropriate here
because “the weight of the historical evidence . . .
suggests that felon dispossession laws do not restrict
the ‘core right of armed defense,’ but rather burden
‘activity lying closer to the margins of the right.’”
Kanter, 919 F.3d at 448 n.10. Instead, the core right
identified in Heller is “the right of a law-abiding,
responsible citizen to possess and carry a weapon for
self-defense . . . .” United States v. Chester, 628 F.3d
673, 683 (4th Cir. 2010) (emphasis removed).
¶36 Like the Seventh Circuit in Kanter, we need not
conclusively determine the scope of the historical

applied the intermediate scrutiny analysis in a challenge to a
cruising ordinance as violative of the constitutional right to travel.
See Brandmiller v. Arreola, 199 Wis. 2d 528, 540-41, 544 N.W.2d
894 (1996). More recently, in State v. Culver, 2018 WI App 55, ¶37,
384 Wis. 2d 222, 918 N.W.2d 103, the court of appeals, post-Mayo,
addressed the same question at issue here and applied
intermediate scrutiny.

17a
protections of the Second Amendment. Kanter, 919
F.3d at 447; see infra, ¶41. But also like the Seventh
Circuit in Kanter, we are not persuaded that the core
Second Amendment right is implicated so as to require
strict scrutiny review.
¶37 Accordingly, we determine that Roundtree’s
challenge to Wis. Stat. § 941.29(2) requires the
application of an intermediate level of scrutiny.10
B
¶38 We next apply intermediate scrutiny to the
felon-in-possession statute considering the facts of this
case.
¶39 Generally, Second Amendment challenges
require this court to undertake a two-step approach.
State v. Herrmann, 2015 WI App 97, ¶9, 366 Wis. 2d
312, 873 N.W.2d 257. We ask first “whether the
challenged law imposes a burden on conduct falling
within the scope of the Second Amendment’s
guarantee.” Id. (quoting Marzzarella, 614 F.3d at 89).
If the answer is no, then the inquiry ends. Id.

10

We observe that defendants around the country who raise
as-applied challenges to felon-in-possession statutes will face an
uphill climb. See Pocian, 341 Wis. 2d 380, ¶12 (explaining that as
of the writing of that opinion, “[n]o state law banning felons from
possessing guns has ever been struck down”).
Of those federal circuits that have not foreclosed such
challenges entirely, only one has ever upheld an as-applied Second
Amendment challenge to the federal statute banning firearm
possession by certain individuals convicted of crimes. See Binderup
v. Att’y Gen. U.S., 836 F.3d 336 (3d Cir. 2016); 18 U.S.C. § 922(g);
see also Kanter v. Barr, 919 F.3d 437, 442-44 (7th Cir. 2019).

18a
¶40 If the first inquiry is answered in the
affirmative, then the court proceeds to inquire into “the
strength of the government’s justification for
restricting or regulating the exercise of Second
Amendment rights.” Id. (quoting Ezell, 651 F.3d at
703).
¶41 The Seventh Circuit has described the
historical evidence as to whether felons were
categorically excluded from the Second Amendment’s
scope as “inconclusive.” Kanter, 919 F.3d at 445.
Accordingly, when faced with an as-applied challenge
to the federal felon-in-possession statute, the court
declined to resolve the first step of the inquiry and
instead relied on the dispositive second step–the
application of a means-end scrutiny analysis. Id. at
447. We take a similar approach here.
¶42 Like the court in Kanter, we assume that the
felon-in-possession statute burdens conduct falling
within the scope of the Second Amendment’s guarantee
in order to reach the dispositive issue. Our inquiry,
then, focuses on whether the statute at issue is
substantially related to an important governmental
objective.
¶43 As other courts in this state and elsewhere have
done, we recognize public safety generally, and
preventing gun violence specifically, as important
governmental objectives. See Pocian, 341 Wis. 2d 380,
¶15; Kanter, 919 F.3d at 448. Indeed, “[p]ublic safety
and the protection of human life is a state interest of
the highest order.” State v. Miller, 196 Wis. 2d 238,
249, 538 N.W.2d 573 (Ct. App. 1995).

19a
¶44 Roundtree protests that he should not be
prohibited from firearm possession because his felony
conviction did not involve violence. He claims that the
nature of his conviction and the fact that it is remote in
time weigh in favor of a determination that Wis. Stat.
§ 941.29(2) is unconstitutional as applied to him.
¶45 We are not persuaded that the specific facts of
Roundtree’s case compel such a conclusion. Roundtree
was convicted of failure to support a child for over 120
days. In his view, this is different in kind from the
crime at issue in Pocian, where the defendant was
convicted of uttering a forgery as the underlying felony.
Put frankly, he suggests that failing to pay child
support is not as bad as “physically taking a victim’s
property.”
¶46 But failure to pay child support is every bit as
serious as uttering a forgery if not more so. Those who
fail to make support payments deprive the very people
they should be protecting most, their own children,
from receiving basic necessities. Roundtree chose to
keep money for himself that rightly belonged to his
children. And, to further add to the egregiousness of his
offense, he committed this crime repeatedly by failing
to support for at least 120 days. By all accounts this is
a serious offense.
¶47 Simply because his crime was not physically
violent in nature, it does not follow that the
felon-in-possession statute cannot be constitutionally
applied to Roundtree. The Seventh Circuit determined
as much in Kanter when it concluded that “the
government has shown that prohibiting even
nonviolent felons like Kanter from possessing firearms

20a
is substantially related to its interest in preventing gun
violence.” Kanter, 919 F.3d at 448. The legislature did
not in Wis. Stat. § 941.29(2) create a hierarchy of
felonies, and neither will this court.
¶48 Even in the case of those convicted of
nonviolent felonies, “someone with a felony conviction
on his record is more likely than a nonfelon to engage
in illegal and violent gun use.” United States v. Yancey,
621 F.3d 681, 685 (7th Cir. 2010). Thus, even if a felon
has not exhibited signs of physical violence, it is
reasonable for the State to want to keep firearms out of
the hands of those who have shown a willingness to not
only break the law, but to commit a crime serious
enough that the legislature has denominated it a
felony, as Roundtree has here.
¶49 The State has cited an abundance of research to
support this conclusion. “Other courts addressing this
issue have observed that nonviolent offenders not only
have a higher recidivism rate than the general
population, but certain groups–such as property
offenders–have an even higher recidivism rate than
violent offenders, and a large percentage of the crimes
nonviolent recidivists later commit are violent.”
Kaemmerling v. Lappin, 553 F.3d 669, 683 (D.C. Cir.
2008) (citing Ewing v. California, 538 U.S. 11, 26
(2003)).
¶50 As the Kanter court noted, several studies
“have found a connection between nonviolent offenders
. . . and a risk of future violent crime.” Kanter, 919 F.3d
at 449.

21a
For example, one study of 210,886 nonviolent
offenders found that about one in five were
rearrested for a violent crime within three years
of his or her release. See U.S. Dep’t of Justice,
Bureau of Justice Statistics Profile of Nonviolent
Offenders Exiting State Prisons 2, 4 (2004). A
separate study found that 28.5 percent of
nonviolent property offenders–a category that
includes fraud convictions–were rearrested for a
violent offense within five years of their release.
See Matthew R. Durose, et al., U.S. Dep’t of
Justice, Bureau of Justice Statistics, Recidivism
of Prisoner Released in 30 States in 2005:
Patterns from 2005 to 2010, at 9 (2014). Yet
another study found that “even handgun
purchasers with only 1 prior misdemeanor
conviction and no convictions for offenses
involving firearms or violence were nearly 5
times as likely as those with no prior criminal
history to be charged with new offenses
involving firearms or violence.” Garen J.
Wintemute, et al., Prior Misdemeanor
Convictions as a Risk Factor for Later Violent
and Firearm-Related Criminal Activity Among
Authorized Purchasers of Handguns, 280 J. Am.
Med. Ass’n 2083, 2083 (1998) (emphasis added).
Id.
¶51 Such assertions are echoed by data from the
Wisconsin Department of Corrections (DOC). For
example, DOC data indicate that among recidivists
who committed public order offenses, such as failure to
pay child support, and were released from prison in

22a
2011, 21.4 percent recidivated with a violent offense.
Joseph R. Tatar II & Megan Jones, Recidivism after
Release from Prison, Wis. Dep’t of Corrections, at 14
(August 2016), https://doc.wi.gov/DataResearch/
InteractiveDashboards/RecidivismAfterRelease
FromPrison_2.pdf. As the State strikingly observes in
its brief, “the 21.4 percent rate of public order offenders
recidivating with a violent crime was higher than that
of property offenders (16 percent) and drug offenders
(17.9 percent). And it was just seven percentage points
lower than the rate of violent offenders (28.3 percent).”
This data is surely sufficient to support a substantial
relation between keeping firearms out of the hands of
those convicted of nonviolent felonies and the public
safety objective of preventing gun violence.
¶52 Further, the fact that Roundtree’s conviction
occurred over ten years ago does not affect the result.
Roundtree asserts that he poses no danger to public
safety and should be able to possess a firearm as a
result. However, the record indicates that the gun
Roundtree possessed was stolen and purchased off the
street. Supporting street level gun commerce is hardly
the benign action Roundtree would have us believe it
is.
¶53 In sum, we determine that Roundtree’s
challenge to the felon-in-possession statute (Wis. Stat.
§ 941.29(2)) requires the application of an intermediate
level of scrutiny. Under such an intermediate scrutiny
analysis, we conclude that the felon-in-possession
statute is constitutional as applied to Roundtree
because the statute in question is substantially related

23a
to important governmental objectives, namely public
safety and the prevention of gun violence.
¶54 Accordingly, we affirm the decision of the court
of appeals.
By the Court.—The decision of the court of appeals
is affirmed.
¶55 REBECCA FRANK DALLET, J. (concurring).
I write separately to address the unanswered question
of whether by pleading guilty Roundtree waived his
as-applied challenge to the constitutionality of Wis.
Stat. § 941.29(2). I conclude that, following Class v.
United States, 583 U.S. ___, 138 S. Ct. 798 (2018), he
did not.
¶56 Generally, a defendant who pleads guilty with
the assistance of reasonably competent counsel waives
his right to later raise an independent claim related to
a deprivation of his constitutional rights that occurred
prior to his pleading guilty. See Tollett v. Henderson,
411 U.S. 258, 267 (1973). The rationale behind this
“guilty-plea-waiver rule” is that a counseled guilty plea
admits “all of the factual and legal elements necessary
to sustain a binding, final judgment of guilt and a
lawful sentence.” United States v. Broce, 488 U.S. 563,
569 (1989).1
¶57 In order to balance efficient judicial
administration with the rights protected by the United
1

We have interpreted this rule, like other waiver rules, to be one
of judicial administration that does not deprive an appellate court
of jurisdiction. See State v. Riekoff, 112 Wis. 2d 119, 123-24, 332
N.W.2d 744 (1983).

24a
States Constitution, the United States Supreme Court
has developed exceptions to the guilty-plea-waiver rule
for claims that implicate the State’s very power to
prosecute the defendant, provided that a court can
resolve those claims without venturing beyond the
record. See id. at 574-76; Menna v. New York, 423 U.S.
61, 63 n.2 (1975) (per curiam) (guilty plea did not waive
a constitutional challenge under the Double Jeopardy
Clause when the claim could be resolved on the
existing record); see also Blackledge v. Perry, 417 U.S.
21, 30-31 (1974) (guilty plea did not foreclose a
defendant’s habeas petition alleging “unconstitutional
vindictive prosecution” because the Due Process Clause
precluded the State from even prosecuting the
defendant).
¶58 Although the guilty-plea-waiver rule arose in
the federal context, this court has steadfastly adopted
that precedent. See, e.g., State v. Kelty, 2006 WI 101,
¶42, 294 Wis. 2d 62, 716 N.W.2d 886; Hawkins v.
State, 26 Wis. 2d 443, 448, 132 N.W.2d 545 (1965).
Wisconsin courts have broadened the federal
exceptions, recognizing that a guilty plea does not
waive facial challenges to the constitutionality of the
statute of conviction. See, e.g., State v. Molitor, 210
Wis. 2d 415, 419 n.2, 565 N.W.2d 248 (Ct. App. 1997).
This court, however, has not yet extended that
exception to as-applied constitutional challenges. See
State v. Cole, 2003 WI 112, ¶46, 264 Wis. 2d 520, 665
N.W.2d 328; State v. Trochinski, 2002 WI 56, ¶34 n.15,
253 Wis. 2d 38, 644 N.W.2d 891. But following Class,
the application of the guilty-plea-waiver rule should no
longer depend upon whether an appeal challenging the

25a
constitutionality of a statute is classified as facial or
as-applied.
¶59 In Class, the United States Supreme Court
applied an exception to the guilty-plea-waiver rule to
allow a defendant to challenge the constitutionality of
the statute of conviction on appeal. 138 S. Ct. at
803-05. Class pleaded guilty to unlawfully carrying a
firearm on U.S. Capitol grounds, contrary to 40 U.S.C.
§ 5104(e)(1), after the police had found three guns in
his car in a Capitol parking lot. On appeal, Class
argued that the statute violated his due-process rights
since he did not have fair notice that a parking lot was
part of the Capitol “grounds.” Id. at 802. Class also
claimed that the statute violated his Second
Amendment rights because “Capitol Grounds” included
so broad an area that it was practically impossible to
lawfully carry a firearm anywhere within the District
of Columbia. Id. In allowing both claims to proceed, the
Court rested its decision on its 150-year-old
understanding of the nature of a guilty plea:
The plea of guilty is, of course, a confession of all
the facts charged in the indictment, and also of
the evil intent imputed to the defendant. It is a
waiver also of all merely technical and formal
objections of which the defendant could have
availed himself by any other plea or motion. But
if the facts alleged and admitted do not
constitute a crime against the laws of the
Commonwealth, the defendant is entitled to be
discharged.
Id. at 804 (quoting Commonwealth v. Hinds, 101 Mass.
209, 210 (1869)). The Court held that Class’s guilty

26a
plea did not waive his claims challenging the
constitutionality of the statute of conviction because
those claims involved the State’s ability to
constitutionally prosecute Class and did not contradict
the terms of the indictment or the written plea
agreement. Id. at 805.
¶60 Given the Court’s analysis in Class, there is no
justification for continuing to treat as-applied
challenges to the constitutionality of the statute of
conviction any differently than facial challenges. After
all, Class did not hinge on the type of constitutional
challenge being raised. See United States v. Alarcon
Sanchez, 972 F.3d 156, 166 n.3 (2d Cir. 2020)
(“Pursuant to the holding in Class, defendants have a
right to raise on appeal both as-applied and facial
constitutional challenges to the [statute of
conviction].”). Indeed, when addressing the merits of
Class’s challenges on remand, the D.C. Circuit Court of
Appeals treated both of his claims as as-applied
challenges. See United States v. Class, 930 F.3d 460
(D.C. Cir. 2019). But see State v. Jackson, 2020 WI App
4, ¶¶8-9, 390 Wis. 2d 402, 938 N.W.2d 639 (noting that
it was “not clear . . . whether Class’[s] challenge was an
as-applied or facial challenge”). Second, and more
importantly, the Court’s reasoning in Class must apply
equally to facial and as-applied challenges because both
types of challenges “call into question the
Government’s power to ‘constitutionally prosecute’” the
defendant. Class, 138 S. Ct. at 805 (quoting Broce, 488
U.S. at 575) (adding that whether a constitutional
challenge can be classified as “jurisdictional” is also not
dispositive).

27a
¶61 This court should therefore adopt the holding in
Class, not only to remain consistent with United States
Supreme Court precedent but also to continue to strike
the proper balance between efficient judicial
administration and the protection of a defendant’s
constitutional rights. See Kelty, 294 Wis. 2d 62, ¶27. It
should be the law in Wisconsin that a guilty plea does
not waive a defendant’s right to challenge the statute
of conviction’s constitutionality, facially or as applied,
provided the challenge can be resolved without
contradicting the record. We should withdraw language
from Cole and Trochinski and clarify the court of
appeals’ holding in Jackson to the extent that those
decisions hold that a defendant who pleads guilty
waives his right to later raise an as-applied
constitutional challenge to the statute of conviction.2
¶62 For the foregoing reasons, I respectfully concur.
¶63 I am authorized to state that Justices ANN
WALSH BRADLEY and JILL J. KAROFSKY joins this
concurrence.

2

See State v. Cole, 2003 WI 112, ¶46, 264 Wis. 2d 520, 665 N.W.2d
328; State v. Trochinski, 2002 WI 56, ¶34 n.15, 253 Wis. 2d 38, 644
N.W.2d 891; State v. Jackson, 2020 WI App 4, ¶¶8-9, 390 Wis. 2d
402, 938 N.W.2d 639.

28a
¶64 REBECCA GRASSL BRADLEY, J. (dissenting).
The Second Amendment provides:
A well regulated Militia, being necessary to the
security of a free State, the right of the people to
keep and bear Arms, shall not be infringed.
U.S. Const. amend. II. St. George Tucker, a
pre-eminent constitutional law scholar during the
founding era, described the Second Amendment as “the
true palladium of liberty . . . . The right of self defence
is the first law of nature: in most governments it has
been the study of rulers to confine this right within the
narrowest limits possible. Wherever standing armies
are kept up, and the right of the people to keep and
bear arms is, under any colour or pretext whatsoever,
prohibited, liberty, if not already annihilated, is on the
brink of destruction.” St. George Tucker, Blackstone’s
Commentaries 1: App. 300 (1803). In plainer words, the
Second Amendment is the people’s ultimate protection
against tyranny.
¶65 Applying the original public meaning of this
bulwark of liberty, the United States Supreme Court
more than a decade ago finally dispelled the prevalent,
but historically ignorant notion that the Second
Amendment protects merely a collective, militia
member’s right. The Supreme Court declared the right
to keep and bear arms is “exercised individually and
belongs to all Americans”; accordingly, “the District [of
Columbia]’s ban on handgun possession in the home
violates the Second Amendment . . . .” District of
Columbia v. Heller, 554 U.S. 570, 581, 635 (2008)
(emphasis added). See also Letter from Thomas
Jefferson to James Madison (Dec. 20, 1787), in The

29a
Papers of Thomas Jefferson, XII, 438-40 (Julian Boyd
ed., 1950) (“Let me add that a bill of rights is what the
people are entitled to against every government on
earth, general or particular, [and] what no just
government should refuse or rest on inference.”)
(emphasis added). Any encroachment upon this
fundamental right must withstand strict judicial
scrutiny. Wisconsin Carry, Inc. v. City of Madison,
2017 WI 19, ¶9, 373 Wis. 2d 543, 892 N.W.2d 233
(declaring the right to keep and bear arms to be “a
species of right we denominate as ‘fundamental’”);
Mayo v. Wisconsin Injured Patients & Families Comp.
Fund, 2018 WI 78, ¶28, 383 Wis. 2d 1, 914 N.W.2d 678
(“Strict scrutiny is applied to statutes that restrict a
fundamental right.”).
¶66 Ignoring conclusive historical evidence to the
contrary, the majority upholds the constitutionality of
Wisconsin’s categorical ban on the possession of
firearms by any person convicted of a felony offense,1
regardless of whether that individual is dangerous.
Under the majority’s vision of what is good for society,
“even if a felon has not exhibited signs of physical
violence, it is reasonable for the State to want to keep
firearms out of the hands of those who have shown a
willingness to . . . break the law.” Majority op., ¶48
(emphasis added). It may be “reasonable” to the
majority but it surely isn’t constitutional. “The very
enumeration of the right takes out of the hands of
government–even the Third Branch of Government–
the power to decide on a case-by-case basis whether the
right is really worth insisting upon. A constitutional
1

See Wis. Stat. § 941.29(1m).

30a
guarantee subject to future judges’ assessments of its
usefulness is no constitutional guarantee at all.”
Heller, 554 U.S. at 634 (emphasis in original).
Centuries of history warned the Founders that
governments certainly wanted to keep arms out of the
hands of the citizenry in order to ease the
establishment of tyranny–and they often succeeded. It
is for this very reason that the Framers insisted on
preserving the individual right to keep and bear arms
for all Americans.
¶67 Under Wis. Stat. § 941.29(1m), the State
deprives Leevan Roundtree of his fundamental
constitutional right to keep and bear arms, based solely
on his failure to pay child support more than ten years
ago, with no showing that he poses a danger to society.
Applying the wrong standard of review, the majority
sidelines the United States Constitution, demotes the
Second Amendment to second-class status,2and
endorses a blanket ban on one of our most fundamental
constitutional liberties. In doing so, the majority
contravenes the original public meaning of the Second
Amendment. I dissent.
I
¶68 The Constitution takes precedence over any
statute, and any statute in conflict with the
Constitution cannot stand. “The [C]onstitution is either

2

See McDonald v. City of Chicago, 561 U.S. 742, 780 (2010)
(“[R]espondents, in effect, ask us to treat the right recognized in
Heller as a second-class right, subject to an entirely different body
of rules than the other Bill of Rights guarantees that we have held
to be incorporated into the Due Process Clause.”).

31a
a superior, paramount law, unchangeable by ordinary
means, or it is on a level with ordinary legislative acts,
and, like other acts, is alterable when the legislature
shall please to alter it. If the former part of the
alternative be true, then a legislative act contrary to
the [C]onstitution is not law; if the latter part be true,
then written [C]onstitutions are absurd attempts on
the part of the people to limit a power in its own nature
illimitable.” Marbury v. Madison, 5 U.S. 137, 177
(1803). Bearing in mind that the Second Amendment
protects the “first law of nature”–the right to defend
oneself–any infringement of the right must be
concordant with the Constitution and may replicate
only those restrictions society accepted at the founding.
Permitting restraints on the right to keep and bear
arms that were never contemplated by the Framers
lends an illimitable quality to the legislative power to
regulate a fundamental right, thereby deflating the
primacy of the Constitution and imperiling the liberty
of the people.
¶69 Wisconsin Stat. § 941.29(1m) bans all felons
from possessing a firearm in this state: “[a] person who
possesses a firearm is guilty of a Class G felony if any
of the following applies: (a) [t]he person has been
convicted of a felony in this state, [or] (b) [t]he person
has been convicted of a crime elsewhere that would be
a felony if committed in this state.” This felon
dispossession statute draws no distinction between an
individual convicted of first-degree homicide and
someone convicted of “failing to comply with any
record-keeping requirement for fish” (a felony in this
state). Wis. Stat. § 29.971(1)(c). Rather than the
historically recognized revocation of Second

32a
Amendment rights predicated on an individual’s
dangerousness to society, the Wisconsin Legislature
instead rescinds those rights based merely on a felony
conviction, irrationally preserving the right to keep and
bear arms for both violent and dangerous citizens.
¶70 In 2003, Roundtree failed to pay child support
for more than 120 consecutive days, resulting in his
conviction for a felony under Wis. Stat. § 948.22(2).
Roundtree was sentenced to four years of probation and
later paid his past due child support. Nearly 13 years
later, while executing a search warrant on Roundtree’s
property, the police found a handgun tucked beneath
his mattress. The State charged Roundtree with
violating Wis. Stat. § 941.29(1m).3 The majority
concludes that Roundtree’s felony conviction for failure
to timely pay child support more than a decade earlier
permanently forecloses his individual Second
Amendment rights. Although the United States
Supreme Court has never opined on the
constitutionality of felon dispossession laws, the
majority reflexively follows federal jurisdictions in
upholding these laws, neglecting (as other courts have)
to conduct the historical analysis necessary to ascertain
the original public meaning of the Second Amendment
in this regard.
¶71 Troublingly, the majority applies intermediate
scrutiny to a statute that demands strict scrutiny

3

Roundtree was actually convicted under Wis. Stat. § 941.29(2),
but sub. (2) was subsequently repealed and replaced with Wis.
Stat. § 941.29(1m). For consistency and to avoid confusion, I use
sub. (1m) throughout.

33a
review, while declining to discern whether the people
who ratified the Bill of Rights consented to the removal
of the Second Amendment right from non-violent
felons. While legislatures have always had the power to
prohibit people who are dangerous from possessing
firearms, the Second Amendment does not countenance
collectively depriving all felons of their individual
Second Amendment rights. Such laws sweep too
broadly, disarming those who pose no danger to society.
And if the professed purpose of felon dispossession laws
is “public safety and the prevention of gun violence” as
the majority describes,4 then Wisconsin’s lawmakers
need to adjust their aim; Wis. Stat. § 941.29(1m) leaves
violent misdemeanants free to keep and bear arms.
¶72 Since the founding of our nation, Americans
have understood their right to keep and bear arms as
fundamental to the people’s self-preservation and
defense. Heller, 554 U.S. at 593-94 (“By the time of the
founding, the right to have arms had become
fundamental for English subjects,” citing Blackstone’s
description of “the right of having and using arms for
self-preservation and defence”). In Wisconsin Carry,
this court expressly recognized the right to keep and
bear arms to be “a species of right we denominate as
‘fundamental,’ reflecting our understanding that it
finds its protection, but not its source, in our
constitutions.” 373 Wis. 2d 543, ¶9 (citations omitted).
During the ratifying conventions, “there was broad
consensus between Federalists and their opponents on
the existence and nature of the ‘natural right’ to keep
and bear arms for defensive purposes.” Binderup v.
4

Majority op., ¶4.

34a
Atty. Gen. U.S. of America, 836 F.3d 336, 367 (3d Cir.
2016) (Hardiman, J., concurring). Although we expound
only the Second Amendment in this case, this court has
also deemed the people’s right to keep and bear arms
protected under the Wisconsin Constitution5 to be a
fundamental right. State v. Cole, 2003 WI 112, ¶20,
264 Wis. 2d 520, 665 N.W.2d 328 (“We find that the
state constitutional right to bear arms is
fundamental.”). Because Wis. Stat. § 941.29(1m)
restricts a fundamental right that predates and is
“independent of” the Constitution entirely, Wisconsin
Carry, 373 Wis. 2d 543, ¶9, strict scrutiny must apply.
¶73 Inexplicably, but quite conveniently, the
majority opinion never mentions Wisconsin Carry, nor
does it even utter the word “fundamental.” When a
challenged statute impairs a fundamental right, this
court must apply a heightened level of scrutiny. Very
recently, this court articulated that “[s]trict scrutiny is
applied to statutes that restrict a fundamental right.”
Mayo, 383 Wis. 2d 1, ¶28. Not only does the majority
disregard the nature of the right to keep and bear
arms, it also fails to apply Mayo, which hardly imposed
a novel approach to examining laws restricting
fundamental rights. Strict scrutiny has never been
limited to equal protection challenges. We recently
reiterated that “[a] statute which directly and
substantially infringes upon a fundamental liberty
interest must withstand strict scrutiny: it must be
narrowly tailored to serve a compelling state interest.”

5

See Article 1, Section 25 of the Wisconsin Constitution: “The
people have the right to keep and bear arms for security, defense,
hunting, recreation or any other lawful purpose.”

35a
Matter of Visitation of A.A.L., 2019 WI 57, ¶18, 387
Wis. 2d 1, 927 N.W.2d 486. See also Burson v.
Freeman, 504 U.S. 191, 199 (1992); Reno v. Flores, 507
U.S. 292, 301-02 (1993). Strict scrutiny applies “when
a statute impinges on a ‘fundamental right’ or creates
a classification that ‘operates to the peculiar
disadvantage of a suspect class.’” Metropolitan
Associates v. City of Milwaukee, 2011 WI 20, ¶60 n.20,
332 Wis. 2d 857, 96 N.W.2d 717 (emphasis added). In
Larson v. Burmaster, 2006 WI App 142, ¶42, 295 Wis.
2d 333, 720 N.W.2d 134, the Wisconsin Court of
Appeals held that “strict scrutiny is applied” when a
“fundamental constitutional right is violated.”
¶74 Without explanation, the majority altogether
ignores its holding in Wisconsin Carry and refuses to
apply Mayo, two cases we recently decided. The
majority threatens every Wisconsin citizen’s right to
keep and bear arms by failing to acknowledge the right
as fundamental and accordingly using the wrong level
of review. In electing to apply an intermediate level of
scrutiny, the majority misconstrues the nature of the
infringement of Roundtree’s Second Amendment right.
Its error stems from mischaracterizing the person who
seeks to exercise his Second Amendment right as an
“activity lying closer to the margins of the right.”
Majority op., ¶35 (emphasis added) (citing Kanter v.
Barr, 919 F.3d 437, 448 n.10 (7th Cir. 2019)). Of course,
a person is not an “activity” and in this case, Roundtree
wishes to exercise what Heller pronounced to be the
“core lawful purpose of armed defense,” which the State
of Wisconsin totally denies him. 554 U.S. at 630. “[A]
lifetime ban on any felon possessing any firearm”
undoubtedly “does impair the ‘core conduct’ of

36a
self-defense in the home–at least for a felon who has
completed his sentence, or someone who shares his
household.” C. Kevin Marshall, Why Can’t Martha
Stewart Have a Gun?, 32 Harv. J.L. & Pub. Pol’y 695,
697 (2009). Such “broadly prohibitory laws restricting
the core Second Amendment right . . . are categorically
unconstitutional.” Ezell v. City of Chicago, 651 F.3d
684, 703 (7th Cir. 2011). Roundtree’s core right to
possess a firearm in his own home is not merely
restricted, it is extinguished. This alone warrants strict
scrutiny.
¶75 Ultimately, the level of scrutiny applied is not
dispositive; Wis. Stat. § 941.29(1m) fails under either
level of review. More importantly, the statute is
inconsistent with the historical understanding of the
scope of the Second Amendment right and who
possesses it. For this reason, Heller declined to adopt
a particular level of scrutiny.6 The Supreme Court
expressed only that “‘rational basis’ . . . could not be
used to evaluate the extent to which a legislature may
regulate a specific, enumerated right” such as “the
right to keep and bear arms.” Heller, 554 U.S. at 628

6

District of Columbia v. Heller, 554 U.S. 570, 581, 628 (2008). See
also State v. Sieyes, 225 P.3d 995, ¶34 (Wash. 2010) (“We follow
Heller in declining to analyze [Washington’s statute restricting the
rights of children to keep and bear arms] under any level of
scrutiny. Instead we look to the Second Amendment’s original
meaning, the traditional understanding of the right, and the
burden imposed on children by upholding the statute. See
generally Eugene Volokh, Implementing the Right to Keep and
Bear Arms for Self-Defense: An Analytical Framework and a
Research Agenda, 56 UCLA L. Rev. 1443, 1449 (2009).”).

37a
n.27 (“If all that was required to overcome the right to
keep and bear arms was a rational basis, the Second
Amendment would . . . have no effect.”). If anything,
Heller signals that courts should approach challenges
to statutes infringing the Second Amendment right
with a rigorous review of history, rather than the
inherently subjective consideration of whether the
government’s interest in curtailing the right outweighs
the individual’s interest in exercising it. “As to the ban
on handguns[,] . . . the Supreme Court in Heller never
asked whether the law was narrowly tailored to serve
a compelling government interest (strict scrutiny) or
substantially related to an important government
interest (intermediate scrutiny). If the Supreme Court
had meant to adopt one of those tests, it could have
said so in Heller and measured D.C.’s handgun ban
against the relevant standard. But the Court did not do
so; it instead determined that handguns had not
traditionally been banned and were in common use—
and thus that D.C.’s handgun ban was
unconstitutional.” Heller v. District of Columbia, 670
F.3d 1244, 1273 (D.C. Cir. 2011) (Kavanaugh, J.,
dissenting). The majority in this case should have
conducted the historical analysis necessary to
determine whether felons were traditionally
dispossessed of their weapons. They weren’t, unless
they were dangerous to society. Accordingly,
Wisconsin’s categorical dispossession of all felons
irrespective of whether they pose a danger to the public
is unconstitutional.
¶76 Although the United States Supreme Court has
declined to pronounce the appropriate level of review
for statutes burdening the fundamental right to keep

38a
and bear arms in favor of discerning the traditional
understanding of the Second Amendment, this court
(as it must) has recognized the right to keep and bear
arms to be fundamental, and this court has declared
strict scrutiny to be the appropriate level of scrutiny
“applied to statutes that restrict a fundamental right.”
Mayo, 383 Wis. 2d 1, ¶28. At the very least, the
majority should explain why it now subordinates the
fundamental, constitutional right to keep and bear
arms.
II
¶77 Statutes subject to strict scrutiny rarely
survive. Burson v. Freeman, 504 U.S. 191, 211 (1992)
(“[I]t is the rare case in which we have held that a law
survives strict scrutiny.”). In order to survive, “a
statute must serve a compelling state interest[,] . . . be
necessary to serving that interest[,] and . . . be
narrowly tailored toward furthering that compelling
state interest.” Mayo, 383 Wis. 2d 1, ¶28. Historically,
laws that dispossessed the violent served the
compelling state interest in public safety. Wisconsin’s
felon dispossession law, however, ensnares the
non-violent, thereby detaching itself from the statute’s
ostensible purpose.
¶78 Even assuming Wisconsin’s felon dispossession
statute serves the unquestionably compelling state
interest in public safety,7 the statute is not “narrowly
tailored” toward advancing that interest because it
7

State v. Pocian, 2012 WI App 58, ¶12, 341 Wis. 2d 380, 814
N.W.2d 894 (quoted source omitted) (holding that felon
dispossession statutes are a “matter of public safety”).

39a
applies to any individual convicted of a felony offense,
even if that person poses no danger to society. For
example: “One man beats his wife, harming her
physically and emotionally and traumatizing their
children who witness the assault. He may, however,
only have committed battery, a misdemeanor.” State v.
Thomas, 2004 WI App 115, ¶47, 274 Wis. 2d 513, 683
N.W.2d 497 (Schudson, J., concurring) (emphasis in
original). The legislature allows this undisputedly
violent man to possess a firearm. “Another man enters
a garage to steal a shovel; he has committed a
burglary,” which is a felony offense. Id. The legislature
forever prohibits him from possessing a firearm. “One
woman drives while intoxicated, threatening the lives
of countless citizens. Under Wisconsin’s drunk driving
laws–the weakest in the nation–she has committed a
non-criminal offense if it is her first, or only a
misdemeanor unless it is her fifth (or subsequent)
offense.” Id., ¶48. Wisconsin’s legislature deems this
woman fit to possess a firearm. “Another woman,
however, forges a check; she has committed a felony.”
Id. As a result, Wisconsin’s legislature forever prohibits
her from possessing a firearm. Despite the utterly
ineffectual distinctions drawn by the legislature, the
majority allows the legislature to permanently
dispossess non-dangerous individuals of their Second
Amendment rights while allowing violent citizens to
retain them. Even intermediate scrutiny cannot save a
statute that purports to serve an important
government interest–protecting society from violent
criminals–but fails so miserably to achieve it.
¶79 In considering an as-applied challenge to a law
“that entirely bars the challenger from exercising the

40a
core Second Amendment right, any resort to means-end
scrutiny is inappropriate” when the challenger falls
outside of “the historical justifications supporting the
regulation.” Binderup, 836 F.3d at 363 (Hardiman, J.,
concurring). Instead, “such laws are categorically
invalid as applied to persons entitled to Second
Amendment protection.” Id. In Binderup, a federal
statute dispossessing all individuals convicted of state
misdemeanors punishable by more than two years in
prison went “even further than the ‘severe restriction’
struck down in Heller: it completely eviscerate[d] the
Second Amendment right” as to an entire group of
individuals who were historically proven to retain it.
Id. at 364. So too with Wisconsin’s categorical ban on
the possession of firearms by non-dangerous felons.
The original meaning of the Second Amendment,
encompassing a traditional understanding of the scope
of the rights it protects as well as the range of
historically recognized restrictions, establishes this
statute’s unconstitutionality, independent of the
application of any standard of scrutiny.
III
¶80 At its inception, the right to keep and bear
arms protected under the Second Amendment was
never understood to countenance the categorical
exclusion of felons that Wis. Stat. § 941.29(1m)
endorses. Historically, legislatures prohibited only
dangerous people from possessing a firearm, not an
individual like Roundtree who, although convicted of a
felony offense, poses no demonstrable risk to the public.
This more narrowly drawn restriction reflects the

41a
nature of the right as an individual, rather than a
merely collective or civil one.
¶81 In drafting the Second Amendment, “both
Federalists and Anti-Federalists accepted an individual
right to arms; the only debate was over how best to
guarantee it.” Don B. Kates, Jr., Handgun Prohibition
and the Original Meaning of the Second Amendment,
82 Mich. L. Rev. 204, 223 (1983). The Founders settled
on the following language: “A well regulated Militia,
being necessary to the security of a free State, the right
of the people to keep and bear Arms, shall not be
infringed.” U.S. Const. amend. II. When judges
interpret constitutional text, we give words their
original public meaning. Judges who instead inject a
modern gloss over constitutional provisions
impermissibly change their meaning, a right reserved
to the people through the process of constitutional
amendment. In interpreting the Second Amendment,
we accordingly apply the particular meaning of the
words “militia” and “right of the people” as they were
understood at the time of ratification.
¶82 At the time of the founding, “militia” meant
“the body of the people”–an adult citizenry “who were
not simply allowed to keep their own arms, but
affirmatively required to do so.” Letters from the
Federal Farmer to the Republican 123 (W. Bennett ed.
1978) (ascribed to Richard Henry Lee) (“A militia, when
properly formed, are in fact the people themselves
. . . .”); Kates, supra, at 214 (discussing how, in the
pre-colonial tradition, male citizens were required to
keep arms for purposes of law enforcement). It was the
citizenry’s collection of personally-owned firearms that

42a
made possible law enforcement and military service
during the founding era. After all, the Founders
preserved this right primarily in response to the
tyranny witnessed in England and its corresponding
colonies. As George Mason warned, it was the goal of
the English monarch “to disarm the people,” as that
was the “best and most effectual way to enslave them.”
3 J. Elliot, Debates in the Several State Conventions
380 (2d ed. 1836).
¶83 As a principal means of resisting such tyranny,
the Founders enshrined the “right of the people” to
keep and bear arms as an individual right. As Richard
Henry Lee understood, “to preserve liberty, it is
essential that the whole body of the people always
possess arms and be taught alike, especially when
young, how to use them.” Kates, supra, at 221-22
(citing Letters from the Federal Farmer, supra, at 124).
For Lee, the right to keep and bear arms formed a
bedrock of an independent nation and free society. The
Second Amendment “right of the people” perfectly
mirrors the language found in the First and Fourth
Amendments. In each of these provisions, “the people”
unequivocally retain far-reaching and fundamental
individual rights under the Constitution. As Heller
acknowledged, “the people” “refers to a class of persons
who are part of a national community or who have
otherwise developed sufficient connection with this
country to be considered part of that community.”
Heller, 554 U.S. at 580 (citing United States v.
Verdugo-Urquidez, 494 U.S. 259, 265 (1990)). It is
within the context of this broad protection of individual
liberty that the Second Amendment must be
understood. While the Constitution permits certain

43a
restrictions, regulations, and forfeitures of the right to
keep and bear arms, any curtailing of such a
fundamental liberty interest requires close judicial
inspection.
¶84 In a case also concerning a constitutional
challenge to Wis. Stat. § 941.29(1m), Seventh Circuit
Court of Appeals Judge Amy Barrett undertook the
“exhaustive historical analysis” of the Second
Amendment as applied to felons, an issue left
unexamined in Heller, which did not consider the
constitutionality of felon dispossession laws. In that
seminal opinion, then-Judge Barrett concluded that
“[h]istory is consistent with common sense: it
demonstrates that legislatures have the power to
prohibit dangerous people from possessing guns[,] [b]ut
that power extends only to people who are dangerous.”
Kanter v. Barr, 919 F.3d 437, 451 (7th Cir. 2019)
(Barrett, J., dissenting). Founding-era state ratifying
conventions and contemporaneously-enacted legislation
reveal that the Second Amendment never empowered
legislatures to disarm non-dangerous felons.
¶85 Language protecting the right to bear arms
proposed during the New Hampshire, Massachusetts,
and Pennsylvania ratifying conventions is frequently
cited as evidence of the constitutionality of felon
disarmament. Kanter, 919 F.3d at 455 (Barrett, J.,
dissenting). All three proposals, however, would have
excluded from the Second Amendment’s protections
only people who were dangerous. Id. at 456. The New
Hampshire state convention proposed that “Congress
shall never disarm any Citizen unless such as are or
have been in Actual Rebellion.” 2 Bernard Schwartz,

44a
The Bill of Rights: A Documentary History 761 (1971)
(emphasis added). At the time, “[t]his limitation
targeted a narrow group because ‘rebellion’ was a very
specific crime” denoting treason. Kanter, 919 F.3d at
455 (Barrett, J., dissenting) (citing Rebellion, 2 New
Universal Etymological English Dictionary (4th ed.
1756)). Nothing in the historical record suggests New
Hampshire would have extended disarmament to
common criminals, much less individuals who posed no
risk to public safety.
¶86 The same can be said for the proposal from the
Massachusetts convention. Samuel Adams suggested
limiting the right to bear arms to “peaceable citizens.”
Id. (citing Schwartz, supra, at 681). In the founding
era, “‘peaceable’ meant ‘[f]ree from war; free from
tumult’; ‘[q]uiet; undisturbed’; ‘[n]ot violent; not
bloody’; ‘[n]ot quarrelsome; not turbulent.’” Kanter, 919
F.3d at 455 (Barrett, J., dissenting) (citing 1 Samuel
Johnson, A Dictionary of the English Language (5th ed.
1773)). Each of the antonyms of “peaceable” connote
some form of danger to the public at large. In other
words, the Massachusetts convention couched its
proposed Second Amendment limitation within the
context of one’s propensity for violence; nothing in the
language purports to exclude criminals as a class.
¶87 Lastly, although the Pennsylvania convention
offered ostensibly the strongest restriction on Second
Amendment rights, a more careful reading of this
proposal suggests otherwise. The Pennsylvania
Minority proposed: “That the people have a right to
bear arms . . . and no law shall be passed for disarming
the people or any of them unless for crimes committed,

45a
or real danger of public injury from individuals.”
Schwartz, supra, at 665 (emphasis added). There are
two potential interpretations of this language: one that
would exclude both criminals as well as the otherwise
dangerous, and another that would exclude those who
pose a danger to society, irrespective of whether they
have committed crimes. Kanter, 919 F.3d at 456
(Barrett, J., dissenting). Given the absence of any
historical indications that the founding generation
contemplated the dispossession of all criminals, the
latter interpretation is the more reasonable one, under
which “the catchall phrase limiting the rights of
individuals who pose a ‘real danger of public injury’
would be an effort to capture non-criminals whose
possession of guns would pose the same kind of danger
as possession by those who have committed crimes”
namely, “a subset of crimes” involving “real danger of
public injury.” Id. (emphasis in original).
¶88 Of course, none of the limiting language
proposed by any of these states’ conventions appears in
the Second Amendment. Id. This omission provides
further textual proof that Second Amendment rights
extend to every citizen, unless restricted or removed for
constitutionally-permissible reasons, which were
uniformly rooted in concerns over dangerousness
rather than general criminality. An examination of
legislation in the American colonies predating the
Second Amendment confirms this understanding.
Concerned at the time with impending threats of
English tyranny, the founding generation dispossessed
individuals “who refused to pledge their loyalty to the
Revolution, state, or nation.” Binderup, 836 F.3d at 368
(Hardiman, J., concurring). Early Americans grounded

46a
their disarmament laws in quelling the “potential
danger” posed by those who were disloyal, although
they had committed no crime. Id. (citing Nat’l Rifle
Ass’n of Am., Inc. v. Bureau of Alcohol, Tobacco,
Firearms, & Explosives, 700 F.3d 185, 200 (5th Cir.
2012)). At its core, the founding generation enacted
these types of laws in order to “deal with the potential
threat coming from armed citizens who remained loyal
to another sovereign.” Kanter, 919 F.3d at 457 (Barrett,
J., dissenting) (quoted source omitted). These laws
were not concerned with categorical distinctions based
upon classes of criminals nor an individual’s prior legal
transgressions. Instead, they were designed to disarm
individuals who posed a danger to society or,
particularly in the founding era, a danger to the
Revolution.
¶89 The same can be said about other laws enacted
close in time to the founding. In particular, colonial
legislatures passed statutes disarming Native
Americans and slaves, purportedly out of fear of their
armed “revolt” or other threats to “public safety.” Id. at
458 (citing Joyce Lee Malcolm, To Keep and Bear Arms
140-41 (1994)). Similarly, a distrust of Catholics
prompted their disarmament “on the basis of
allegiance” rather than faith. Id. at 457 (citing Robert
H. Churchill, Gun Regulation, the Police Power, and
the Right to Keep Arms in Early America: The Legal
Context of the Second Amendment, 25 Law & Hist.
Rev. 139, 157 (2007)). Although these laws would not
survive a contemporary constitutional challenge, they
nevertheless reveal the limits the founding generation
contemplated for the right to keep and bear arms. The
earliest Americans enacted them out of a fundamental

47a
fear of rebellion and public unrest, rather than as a
forfeiture for criminal conduct. Constitutionally
permissible disarmament is circumscribed by
founding-era conceptions of a person’s danger to
society. In other words, “Heller instructs that the
public understanding of the scope of the right to keep
and bear arms at the time of the Second Amendment
dictates the scope of the right today.” Binderup, 836
F.3d at 367 (Hardiman, J., concurring).
¶90 In contrast to its meaning under Wis. Stat.
§ 941.29(1m), the word “felon” signified something
quite different in the founding era. “At early common
law, the term ‘felon’ applied only to a few very serious,
very dangerous offenses such as murder, rape, arson,
and robbery.” Don B. Kates & Clayton E. Cramer,
Second Amendment Limitations and Criminological
Considerations, 60 Hastings L.J. 1339, 1362 (2009).
Over time, English Parliament began classifying more
and more crimes as “capital offenses, some involving
trivial thefts.” Id. In colonial America, capital
punishment was rare. Kanter, 919 F.3d at 459 (Barrett,
J., dissenting). Although a definitive understanding of
what “felony” meant at that time remains elusive, a
felony conviction unaccompanied by a life sentence
typically resulted in a suspension of rights, rather than
a permanent loss. Id.
¶91 Contrary to this overarching distinction
between dangerous and non-dangerous individuals,
some courts–and the State in this case–claim that the
original meaning of the Second Amendment is rooted in
a “virtuous citizenry” test. See, e.g., United States v.
Yancey, 621 F.3d 681, 684-85 (7th Cir. 2010) (citing

48a
with approval cases concluding that the right to bear
arms was tied to the concept of a virtuous citizenry);
United States v. Carpio-Leon, 701 F.3d 974, 979-80
(4th Cir. (“[F]elons were excluded from the right to
arms because they were deemed unvirtuous.”).
According to this theory, the “right to arms was
inextricably and multifariously linked to that of civic
virtue . . . .” Kates & Cramer, supra, at 1359. Because
criminals have engaged in unvirtuous conduct,
purveyors of this notion posit that the Framers
intended to limit their Second Amendment liberties
outright, irrespective of dangerousness. See id. at 1360.
¶92 The majority alludes to this concept in a
selective but incomplete citation to Heller, proclaiming
that “the Second Amendment secures ‘the right of
law-abiding, responsible citizens to use arms in defense
of hearth and home.’” Majority op., ¶21 (citing Heller,
554 U.S. at 635). Of course, far from restricting the
right to keep and bear arms to a select segment of
society, to be exercised only for self-defense in the
home, Heller instead declared that the Second
Amendment right “belongs to all Americans” and
broadly protects all “defensive purposes” regardless of
whether the right is exercised within or beyond the
home. 554 U.S. at 581, 602. This is the core right
protected by the Second Amendment. The full context
of the phrase from Heller cited by the majority shows
that the Second Amendment is neither limited to
“law-abiding” citizens nor confined to the “defense of
hearth and home.” Instead, the Heller Court reserved
other applications of the Second Amendment for
“future evaluation” while declaring that the
Constitution “surely elevates above all other interests”

49a
the practice prohibited by the District of Columbia’s
handgun ban: “the right of law-abiding citizens to use
arms in defense of hearth and home.” Id. at 635. While
this may constitute a particularly sacrosanct exercise
of the Second Amendment right, at its core, the Second
Amendment protects far more, and nothing in an
original understanding of its text remotely suggests a
non-violent criminal forfeits his Second Amendment
right altogether.
¶93 In suggesting that the Second Amendment
right belongs only to the law-abiding, the virtuous
citizen standard is deeply intertwined with the
collective rights interpretation of the Second
Amendment, a reading Heller debunked as contrary to
the original meaning of the Second Amendment.8 While
“history does show that felons could be disqualified
from exercising certain rights–like the rights to vote
and serve on juries–because these rights belonged only
to virtuous citizens[,]” such “virtue exclusions are
associated with civic rights–individual rights that
‘require[] citizens to act in a collective manner for

8

The “virtuous-citizens-only conception of the right to keep and
bear arms is closely associated with pre-Heller interpretations of
the Second Amendment by proponents of the ‘sophisticated
collective rights model’ who rejected the view that the Amendment
confers an individual right and instead characterized the right as
a ‘civic right . . . exercised by citizens, not individuals . . . who act
together in a collective manner, for a distinctly public purpose:
participation in a well regulated militia.’” Binderup v. Atty. Gen.
U.S. of America, 836 F.3d 336, 371 (3rd Cir. 2016) (Hardiman, J.,
concurring) (citing Saul Cornell & Nathan DeDino, A Well
Regulated Right: The Early American Origins of Gun Control, 73
Fordham L. Rev. 487, 491-92 (2004)).

50a
distinctly public purposes.’” Kanter, 919 F.3d at 462
(Barrett, J., dissenting) (citation omitted). In contrast,
the Second Amendment “unambiguously” protects
“individual rights,” not collective rights. Heller, 554
U.S. at 579. Given the Supreme Court’s rightful
rejection of the collective rights theory as applied to the
right to keep and bear arms, the virtuous citizenry
standard is entirely misplaced in construing the Second
Amendment, particularly considering that its exercise
is “intimately connected with the natural right of
self-defense, and not limited to civic participation.”
Kanter, 919 F.3d at 464 (Barrett, J., dissenting).
¶94 The virtuous citizenry standard lacks any
foundation in the historical backdrop to the Second
Amendment. For one, “this supposed limitation on the
Second Amendment stems from a misreading of an
academic debate about ‘ideological interpretation.’”
Binderup, 836 F.3d at 371 (Hardiman, J., concurring)
(citation omitted). In advancing this theory, certain
scholars divorced themselves from more authoritative
historical sources and wrongly focused upon whether or
not particular Founders were civic republicans or
libertarians. Id.; see also Saul Cornell & Nathan
DeDino, A Well Regulated Right: The Early American
Origins of Gun Control, 73 Fordham L. Rev. 487, 492
(2004). This debate over ideology may inform the
Framers’ motivations for constitutionally preserving
the right to keep and bear arms, but it has nothing to
say about the scope of the right or any constitutionally
permissible restrictions on its exercise.
¶95 If the virtuous citizenry test was historically
valid, we would expect to discover 18th and 19th

51a
century laws depriving felons of their Second
Amendment rights–a class of people that would
certainly be categorized as “unvirtuous.” But that is
simply not the case. In the decades following
ratification, “nine states enacted their own
right-to-arms provisions in their constitutions,” and
none of them placed restrictions on criminals. Kanter,
919 F.3d at 463 (Barrett, J., dissenting) (citing Eugene
Volokh, State Constitutional Rights to Keep and Bear
Arms, 11 Tex. Rev. L. & Pol. 191, 208-09 (2006)). The
historic record affords the virtuous citizenry test no
credibility; in fact, there is “no historical evidence on
the public meaning of the right to keep and bear arms
indicating that ‘virtuousness’ was a limitation on one’s
qualification for the right.” Binderup, 836 F.3d at 373
(Hardiman, J., concurring). Instead, as outlined above,
the original meaning of the Second Amendment
contemplates curtailing the rights of only those
individuals who pose a danger to the public.
¶96 The majority’s rationale for sanctioning the
blanket revocation of felons’ Second Amendment right
is even weaker than the “virtuous citizen” justification.
Wisconsin’s citizens should be alarmed by the
breathtaking scope of the majority’s conclusion that “it
is reasonable for the State to want to keep firearms out
of the hands of those who have shown a willingness to
. . . break the law”9 considering the “cancerous growth
since the 1920s of ‘regulatory’ crimes punishable by
more than a year in prison, as distinct from traditional
common-law crimes. The effect of this growth has been
to expand the number and types of crimes that trigger
9

Majority op., ¶48.

52a
‘felon’ disabilities to rope in persons whose convictions
do not establish any threat that they will physically
harm anyone, much less with a gun.” Marshall, supra,
at 697. As but one example of how the ever-expanding
regulatory state may eventually make felons of us all,
recall that whomever fails “to comply with any
record-keeping requirement for fish” is guilty of a Class
I felony under Wis. Stat. § 29.971(1)(c) (provided the
fish are worth more than $1,000).
¶97 Only months ago, a slim majority of this court
invalidated Executive Order 28, which had been issued
by a single, unelected bureaucrat who in the name of
the COVID-19 pandemic “claimed the authoritarian
power to authorize the arrest and imprisonment of the
people of Wisconsin for engaging in lawful activities
proscribed by the DHS secretary-designee in her sole
discretion.” Wisconsin Legislature v. Palm, 2020 WI 42,
¶81, 391 Wis. 2d 497, 942 N.W.2d 900 (Rebecca Grassl
Bradley, J., concurring). Had the court ruled otherwise,
would a majority of this court deem it “reasonable” to
keep firearms out of the hands of those who disobeyed
a cabinet secretary’s decree to “all people within
Wisconsin to remain in their homes, not to travel and
to close all businesses that she declares are not
‘essential’”? Palm, 391 Wis. 2d 497, ¶1. If so, the court’s
decision in this case would give the State license to
disarm a substantial portion of the citizens of
Wisconsin based on their “willingness to break the law”
as unilaterally decreed by an unelected bureaucrat, for
the unspeakable crimes of opening their “non-essential”
businesses or washing their hands for less than 20
seconds. Palm, 391 Wis. 2d 497, ¶87 (Kelly, J.,
concurring). As a general proposition, the judiciary

53a
should defer to the policy choices of the legislative
branch, but when those policy choices
unconstitutionally infringe the people’s fundamental
rights, it is the duty of the judicial branch to say so.
“[T]o make an individual’s entitlement to the Second
Amendment right itself turn on the predilections of the
legislature . . . is deference the Constitution won’t
bear.” Binderup, 836 F.3d at 374 (Hardiman, J.,
concurring).
¶98 Underlying the founding generation’s reverence
for the fundamental right to keep and bear arms was
the understanding that “[o]ne of the ordinary modes, by
which tyrants accomplish their purposes without
resistance, is, by disarming the people, and making it
an offence to keep arms.” Heller, 554 U.S. at 608-09
(citing Joseph Story, A Familiar Exposition of the
Constitution of the United States § 450 (reprinted
1986)). Embodying “the first law of nature” and
representing “the true palladium of liberty,” the
people’s Second Amendment right deserves far more
respect than the legislature or the majority give it.
IV
¶99 Whether applying strict scrutiny or some lesser
standard, Wis. Stat. § 941.29(1m) is unconstitutional as
applied to Roundtree, under the original meaning of
the Second Amendment. Even if a compelling state
interest underlies the statute, it lacks any narrow
tailoring tied to the protection of the public and
therefore the statute unconstitutionally limits
Roundtree’s right to keep and bear arms. Nor does
§ 941.29(1m) bear a substantial relation to an
important governmental objective. Section 941.29(1m)

54a
bans every felon from possessing a firearm in this
state, regardless of whether he poses a danger to the
public. If the compelling/important state interest is
protecting the public from dangerous felons, then the
statute must actually do so. Instead, § 941.29(1m)
disarms every citizen convicted of a felony offense,
regardless of the nature of the crime involved, and
irrespective of whether the offender is dangerous. To
survive either strict or intermediate scrutiny,
§ 941.29(1m) would need to reach only dangerous
felons, as determined by the crime committed or the
offender’s personal characteristics. Under the
intermediate level of scrutiny applied by the majority,
in order to assess “the strength of the government’s
justification for restricting”10 Roundtree’s Second
Amendment rights–public safety–the court must ask
whether the public is safer now that Roundtree is
completely and permanently disarmed.11
¶100 Roundtree committed a non-violent felony
when he failed to pay child support nearly 13 years
ago. The sentencing court did not send Roundtree to
prison, indicating he was not deemed dangerous to the
public. The record shows he made full restitution by
paying what he owed and he did not reoffend.
Roundtree has never been convicted of a violent crime
and the State did not introduce any evidence otherwise
suggesting that Roundtree poses a danger to society.

10

11

Majority op., ¶40 (citation omitted).

C. Kevin Marshall, Why Can’t Martha Stewart Have a Gun?, 32
Harv. J.L. & Pub. Pol’y 695, 696 (2009) (“Is the public safer now
that Martha Stewart is completely and permanently disarmed?”).

55a
Abandoning any pretense of conducting an
individualized inquiry into the application of
Wisconsin’s felon disarmament statute to Roundtree
specifically, the majority instead resorts to nearly
decade-old data from the Wisconsin Department of
Corrections indicating that 21.4 percent of those who
committed “public order offenses” and spent time in
prison later committed a violent crime. Majority op.,
¶51. Of course, Roundtree was never incarcerated for
his offense, so the only foundation for the majority’s
declaration of a “substantial relation” between
disarming nonviolent felons and “preventing gun
violence” collapses when applied to Roundtree and
others like him who never spent time in prison.
¶101 Even if Roundtree had spent time in prison,
the premise that the State may permanently disarm all
felons in order to protect the public, based on data
showing that 21.4 percent of felons incarcerated for
“public order offenses” later commit violent ones,
presents a specious justification for infringing a
fundamental constitutional right. Unlike Roundtree
who was sentenced to probation, Martha Stewart spent
five months in jail. Marshall, supra, at 695. “Is the
public safer now that Martha Stewart is completely
and permanently disarmed?” Id. at 696. Of course not,
and “it is at least curious how Martha Stewart could
merit anyone’s concern.” Id. at 735. The same could be
said for Roundtree, since the State produced no
evidence indicating that Roundtree presents a danger
to society warranting removal of his Second
Amendment right.

56a
¶102 The Founders never understood legislatures to
have the power to strip non-dangerous criminals of
their Second Amendment rights, which the
Constitution protects for all Americans. Absent
statutory language narrowly tailoring the disarming of
felons based upon their perceived dangerousness, or
even bearing a substantial relationship to the
ostensible governmental objective of protecting society,
Wis. Stat. § 941.29(1m) cannot survive any level of
constitutional scrutiny as applied to Roundtree, much
less the hapless possessor of fish who runs afoul of the
record-keeping requirements of Chapter 29 of the
Wisconsin Statutes. Without the predictive powers of
the mutant precogs from “The Minority Report,”12
permanently revoking the Second Amendment rights
of those who fail to meet their familial financial
obligations or carelessly keep their fish records, bears
no relationship to “public safety” or “the prevention of
gun violence,” majority op., ¶53, much less a
substantial one.
¶103 Of particular constitutional concern, Wis. Stat.
§ 941.29(1m) permanently disarms Roundtree and

12

“The Minority Report is a 1956 science fiction novella by
American writer Philip K. Dick, first published in Fantastic
Universe. In a future society, three mutants foresee all crime
before it occurs. Plugged into a great machine, these ‘precogs’ allow
a division of the police called Precrime to arrest suspects before
they can commit any actual crimes.” The philosophical premise
underlying the novella “question[s] the relationship between
authoritarianism and individual autonomy.” The story was
adapted into the 2002 film “Minority Report,” directed by Steven
Spielberg.
https://en.wikipedia.org/wiki/The_Minority_Report.

57a
other non-dangerous felons, who have no avenue for
having their Second Amendment rights restored. In
contrast, a convicted felon only temporarily loses his
right to vote during his incarceration and extended
supervision. Wis. Stat. § 6.03(1)(b). Once he completes
the term of his sentence, the State restores his voting
rights. Wis. Stat. § 304.078(3). Similarly, convicted
felons regain their right to serve as jurors after their
civil rights have been restored. Wis. Stat. § 756.02.
Reviving these collective rights for felons while
permanently dispossessing them of their individual and
fundamental Second Amendment rights turns the
constitutional order on its head.
*****
¶104 To the extent Wis. Stat. § 941.29(1m)
permanently deprives Roundtree of his fundamental,
individual right to keep and bear arms, with no
showing of his dangerousness to society, this statute is
unconstitutional as applied to Roundtree. While the
wisdom of the legislature’s policy choices may be
fiercely debated, “the enshrinement of constitutional
rights necessarily takes certain policy choices off the
table.” Heller, 554 U.S. at 636. Permanent
dispossession of felons’ Second Amendment rights is
one of them. “[A]n act of the Legislature repugnant to
the Constitution is void.” Marbury, 5 U.S. at 177. As
applied to felons who pose no danger to society,
Wisconsin’s felon dispossession statute is repugnant to
the Constitution, and therefore void. Because the
majority allows statutory law to override the
fundamental constitutional right to keep and bear
arms, I dissent.

58a
¶105 BRIAN HAGEDORN, J. (dissenting). The
Second Amendment prohibits the government from
infringing upon the individual and fundamental right
to keep and bear arms. Wisconsin, however, makes
possession of firearms a crime for any person convicted
of a felony. Wis. Stat. § 941.29(1m)(a) (2017-18).1 This
complete ban on possessing firearms never expires; it
lasts for a lifetime. It matters not whether the felony
was for making unlawful political contributions (Wis.
Stat. § 11.1401(1)(a)), legislative logrolling (Wis. Stat.
§ 13.05), armed robbery (Wis. Stat. § 943.32(2)), or
here, delinquent child support (Wis. Stat. § 948.22(2)).
¶106 In 2003, Leevan Roundtree was convicted of a
felony for failure to pay child support for more than 120
days. In 2015, a search warrant found him in
possession of a firearm under his mattress at his home,
leading to the charge currently before us on appeal.
Roundtree asks this court to decide whether the Second
Amendment permits the State to criminalize his
possession of a firearm. The majority answers yes,
reasoning that the State may disarm all those who
have committed a felony of whatever kind. I disagree.
I conclude that the original public meaning of the
Second Amendment supports applying at least
intermediate scrutiny to this type of restriction. This
places the burden on the State to demonstrate that the
law is constitutional as applied to Roundtree by
proving a substantial relationship, a close fit, between
criminalizing gun possession for those convicted of any
felony or of the felony of failure to pay child support
1

All subsequent references to the Wisconsin Statutes are to the
2017-18 version.

59a
and the State’s interest in preventing gun-related
violence. The State has come nowhere close to meeting
its burden. I respectfully dissent.
I. THE SECOND AMENDMENT
¶107 We begin by laying down the guiding
principles of constitutional interpretation, and then
apply those principles to the Second Amendment.2
A. Principles of Constitutional Interpretation
¶108 In America, the people are sovereign. This is
the bedrock principle of American government. Wis.
Leg. v. Palm, 2020 WI 42, ¶172, 391 Wis. 2d 497, 942
N.W.2d 900 (Hagedorn, J., dissenting) (“Government
has a morally legitimate claim to order and command
not because it has the biggest guns or because it’s
always been that way, but because the people have
given it that power.”). When the people established our
federal government, they granted it only a limited set
of enumerated powers. United States v. Morrison, 529
U.S. 598, 607 (2000). States, meanwhile, retained
broad and far-reaching police powers, covering the
state’s inherent power “to promote the general
welfare,” which “covers all matters having a reasonable
relation to the protection of the public health, safety or
welfare.” State v. Interstate Blood Bank, Inc., 65 Wis.
2d 482, 490, 222 N.W.2d 912 (1974).
2

Roundtree also challenges Wis. Stat. § 941.29(1m)(a) under
Article I, Section 25 of the Wisconsin Constitution. However, he
fails to develop this argument in any meaningful way, and we will
not do so for him. Serv. Emps. Int’l Union, Loc. 1 v. Vos, 2020 WI
67, ¶24, 393 Wis. 2d 38, 946 N.W.2d 35. Accordingly, this analysis
focuses on the Second Amendment alone.

60a
¶109 Neither state nor federal power is without
limitation, however. The people declared certain areas
off limits. Many of these limits are listed in the federal
Constitution’s Bill of Rights, including the Second
Amendment’s protection of the right “to keep and bear
Arms.” U.S. Const. amend. II.
¶110 Initially, the Bill of Rights only applied
against the federal government. Timbs v. Indiana, 139
S. Ct. 682, 687 (2019). Following the Civil War,
however, the people decided that some of the limits on
federal power should also constrain the exercise of
state power. Id. To that end, the people adopted the
Fourteenth Amendment which, among other things,
provides that states may not “abridge the privileges or
immunities of citizens of the United States” or “deprive
any person of life, liberty, or property, without due
process of law.” U.S. Const. amend. XIV, § 1. Over time,
the United States Supreme Court has construed the
Fourteenth Amendment as incorporating most of the
protections in the Bill of Rights against the States–the
Second Amendment among them. McDonald City of
Chicago, 561 U.S. 742, 750 (2010). Once incorporated,
the amendment’s “protection applies ‘identically to both
the Federal Government and the States.’” Timbs, 139
S. Ct. at 689 (quoting McDonald, 561 U.S. at 766 n.14).
Therefore, no arm of Wisconsin government may
infringe upon “the right of the people to keep and bear
Arms.” U.S. Const. amend. II.
¶111 The Supreme Court’s Second Amendment
jurisprudence is sparse, establishing for our purposes
only two controlling propositions: (1) the Second
Amendment is incorporated against the States via the

61a
Fourteenth Amendment; and (2) the right the Second
Amendment protects is an individual right, not a
collective right. McDonald, 561 U.S. at 749-50; District
of Columbia v. Heller, 554 U.S. 570, 595 (2008). While
we are bound by these holdings, neither offers much
assistance in this case. Several federal courts of
appeals have opined on the intersection of the Second
Amendment and felon-dispossession laws, but those
decisions are merely persuasive, not binding.
¶112 In other words, this court is both free and
duty-bound to do the job of a court–not just to compare
and contrast other courts’ opinions, but to explore the
meaning of the Second Amendment and apply it afresh.
Admittedly, this is a difficult task. But we are not
without the tools to do the job. When the people
enacted the Constitution, they used words with certain
meanings, and those words were understood–and
meant to be understood–by the public. Our job when
reading and applying the Constitution is to learn how
its words were understood by the public when they
were written, what many call the “original public
meaning.”
¶113 The first task in this inquiry is, not
surprisingly, to read the constitutional text taking into
account its context and structure. The people who
adopted it, after all, can be presumed to have meant
what their words conveyed when they wrote and
adopted them. Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1,
188 (1824) (“[T]he people who adopted [the
Constitution], must be understood to have employed
words in their natural sense, and to have intended
what they have said.”); see also Joseph L. Story, 1

62a
Commentaries on the Constitution of the United States
§ 451 (1833) (“In the first place, then, every word
employed in the constitution is to be expounded in its
plain, obvious, and common sense, unless the context
furnishes some ground to control, qualify, or enlarge
it.”).
¶114 However, sometimes the meaning of the text
is difficult to determine. This can be especially true
with the passage of time. When that is the case, we
look to the historical record for clues as to what the
public understood the provision to mean when it was
adopted. Serv. Emps. Int’l Union, Loc. 1 v. Vos, 2020
WI 67, ¶28 n.10, 393 Wis. 2d 38, 946 N.W.2d 35
(“[W]here necessary, helpful extrinsic aids may include
the practices at the time the constitution was adopted,
debates over adoption of a given provision, and early
legislative interpretation as evidenced by the first laws
passed following the adoption.”). The meaning of the
text as enlightened by the historical record is no less
binding because the historical inquiry is still directed
toward discovering what the words were understood to
convey when written. See McPherson v. Blacker, 146
U.S. 1, 27 (1892); Heller, 554 U.S. at 592. In other
words, the original public meaning controls, even when
we have to work a little to find it.
¶115 Judicial application of the original public
meaning is sometimes quite easy. A President, for
example, must be at least 35 years old. U.S. Const. art.
II, § 1, cl. 5. Putting that into practice isn’t difficult and
requires nothing more than analyzing and applying the
text. But other provisions, especially the more vaguely
worded protections in the Bill of Rights, often demand

63a
some legal framework or test that enables a court to
apply the law to the facts of a case. See, e.g., Ezell v.
City of Chicago, 651 F.3d 684, 700-04 (7th Cir. 2011);
see also Bartlett v. Evers, 2020 WI 68, ¶¶256-59, 393
Wis. 2d 172, 945 N.W.2d 685 (Hagedorn, J.,
concurring). Our law is replete with these
implementing doctrines that give effect to various
constitutional provisions.3
¶116 A proper legal test must implement and
effectuate the original public meaning of the law.
Bartlett, 393 Wis. 2d 172, ¶259 (Hagedorn, J.,
concurring) (explaining that an appropriate
implementing doctrine is one “that gets us to the heart
of the constitution’s meaning”). This is not a license for
the judiciary to engage in policy-driven constitutional
line drawing. Rather, an implementing doctrine must
be a faithful extension of the lines ascertainable in the
provision’s text and history. Id., ¶¶257-59.
¶117 With these principles in mind, we turn to the
text and history of the Second Amendment, followed by
a discussion of its proper application.

3

For example, the Fourth Amendment protects against
unreasonable searches and seizures. This text is put into practice
with the default warrant requirement and analytical categories
such as reasonable suspicion, probable cause, and exigent
circumstances. E.g., Terry v. Ohio, 392 U.S. 1, 27 (1968); Payton v.
New York, 445 U.S. 573, 590 (1980). Most challenges under the
equal protection clause are analyzed under a rational basis test.
E.g., Gregory v. Ashcroft, 501 U.S. 452, 470 (1991). But
government discrimination on the basis of race is subject to strict
scrutiny. E.g., Loving v. Virginia, 388 U.S. 1, 11 (1967). And the
list could go on.

64a
B. The Text
¶118 The Second Amendment provides: “A well
regulated Militia, being necessary to the security of a
free State, the right of the people to keep and bear
Arms, shall not be infringed.” U.S. Const., amend. II.
¶119 As more extensively discussed in Heller, the
Second Amendment contains both a prefatory and
operative clause, the latter of which protects the right
to keep arms and to bear them. Heller, 554 U.S. at
576-78. Historical evidence makes clear that “‘[k]eep
arms’ was simply a common way of referring to
possessing arms, for militiamen and everyone else.” Id.
at 583. Similarly, to “bear” arms meant to carry, as it
is understood today. Id. at 584.
¶120 The text’s reference to “the right of the people”
reflects an understanding that this right–like the
Founders’ understanding of many protections in the
Bill of Rights–did not create a new right unknown to
the people. Id. at 592. Rather, the Second Amendment
presumes this right already existed and was held by
the people. Id. The Second Amendment therefore called
upon a right that had an ascertainable scope and
substance, and gave it protection in our fundamental
law.
¶121 By adopting the Second Amendment, then, the
people prohibited the federal government from
infringing their right to keep and bear arms to the
same extent the right existed when the Second
Amendment was ratified in 1791. As Heller explained,
“Constitutional rights are enshrined with the scope
they were understood to have when the people adopted

65a
them, whether or not future legislatures or (yes) even
future judges think that scope too broad.” Id. at 634-35.
¶122 The text, however, leaves many questions
unanswered. It does not readily reveal the nature of
the right as it was originally understood, and therefore
the power of the state to regulate matters touching its
protections. Accordingly, we look to the historical
record for further assistance.
C. The History
¶123 In 1689 King William and Queen Mary
assured Englishmen that they would never be
disarmed. Heller, 554 U.S. at 593. Codified in the
English Bill of Rights, the protection provided: “That
the Subjects which are Protestants, may have Arms for
their Defence suitable to their Conditions, and as
allowed by Law.” Id. (quoting 1 W. & M., ch. 2, § 7, in
3 Eng. Stat. at Large 441 (1689)). The English right to
arms “has long been understood to be the predecessor
to our Second Amendment.” Id. This forerunner, and its
understanding leading up to the adoption of the Second
Amendment in 1791, is our starting point.
¶124 But our study of the historical record does not
end there. As noted above, the Second Amendment
does not operate against the states directly; it does so
by incorporation via the Fourteenth Amendment,
which was ratified in 1868. Although this issue
engenders some debate, the prevailing view is that
“when state- or local-government action is challenged,
the focus of the original-meaning inquiry is carried
forward in time; the Second Amendment’s scope as a
limitation on the States depends on how the right was

66a
understood when the Fourteenth Amendment was
ratified.” Ezell, 651 F.3d at 702 (citing McDonald, 561
U.S. at 770-77). Thus, our study of the historical record
does not conclude with the close of the Founding Era,
but rather continues through the Reconstruction Era.
Id. at 702-03.
1. A Positive Right
¶125 At its core, the historical record demonstrates
that the Second Amendment protects the longstanding,
natural right to self-defense.
¶126 From the outset, the English Bill of Rights
made this point explicit by guaranteeing the right to
“have Arms for . . . Defence.” Heller, 554 U.S. at 593.
Blackstone, reflecting on the English right, noted that
it protected the “natural right of resistance and
self-preservation” and “the right of having and using
arms for self-preservation and defence.” Id. at 594
(quoting 1 William Blackstone, Commentaries on the
Laws of England 139-40 (1765)).
¶127 Across the Atlantic, after King George III tried
to disarm American colonists, Americans “invoke[ed]
their rights as Englishmen to keep arms.” Id. It was in
that context that a New York newspaper said in April
1769 that “[i]t is a natural right which the people have
reserved to themselves, confirmed by the Bill of Rights,
to keep arms for their own defence.” Id. (quoted source
omitted). On the American conception of the right to
keep and bear arms, Blackstone observed it was
“without any qualification as to their condition or
degree, as [was] the case in the British government.” 1

67a
William Blackstone, Commentaries on the Laws of
England 143 n.40 (St. George Tucker ed. 1803).
¶128 In short, the central component of the Second
Amendment is the longstanding, natural right to
self-defense. Heller, 554 U.S. at 595. And, as Heller
noted, this right extends “to the home, where the need
for defense of self, family, and property is most acute.”
Id. at 628.
2. With Limitations
¶129 This core right, however, was not impervious
to certain types of government regulation. Laws
restricting the right to keep and bear arms were rare,
but they were not unknown. Those that existed were
largely aimed at persons or classes of people who might
violently take up arms against the government in
rebellion, or at persons who posed a more immediate
danger to the public.
¶130 An early instance of this was in 1689, the
same year the English Bill of Rights codified
Protestants’ right to possess arms. At that time,
Catholics were deemed a threat to rebel against the
Protestant crown and “were not permitted to ‘keep
arms in their houses.’” Heller, 554 U.S. at 582 (quoting
4 William Blackstone, Commentaries on the Laws of
England 55 (1769)). A 1695 Irish law disarmed
Catholics on the same basis. 7 Will. III ch. 5, § 3 (1695);
see also Joseph G.S. Greenlee, The Historical
Justifications for Prohibiting Dangerous Persons from
Possessing Arms, 20 Wyo. L. Rev. 249, 260 (2020).
These class-based dispossessions of those feared to be
disloyal to the crown, and therefore likely to take up

68a
arms against the crown, were renewed multiple times
and persisted well into the 18th century. Greenlee,
supra at 260-61.
¶131 The American colonies adopted similar laws
disarming those they feared would use them to violent
ends. In 1736, Virginia permitted constables to “take
away Arms from such who ride, or go, offensively
armed, in Terror of the People.” Id. at 262 (quoting
George Webb, The Office of Authority of a Justice of
Peace 92-93 (1736)). And in 1756, during the French
and Indian War, Virginia authorized the seizure of
arms from Catholics out of fear they were sympathetic
to the French cause and would take up arms against
the colonies. Id. at 263. But even that law provided an
exception “for the defense of his house or person.” Id.
(quoting 7 William Waller Hening, The Statutes at
Large; Being a Collection of All the Laws of Virginia 37
(1820)). Maryland and Pennsylvania also enacted
similar laws during the French and Indian War. Id.
¶132 The revolutionary years gave rise to related
laws targeting those perceived as disloyal to the
American cause and therefore at risk to take up arms
in violence against it. In 1775, Connecticut prohibited
anyone who defamed acts of Congress from keeping
arms “until such time as he could prove his friendliness
to the liberal cause.” Id. at 268 (quoting G.A. Gilbert,
The Connecticut Loyalists in 4 Am. Historical Rev. 273,
282 (1899)). One year later, the Continental Congress
passed the Tory Act, which called for disarming those
with “erroneous opinions, respecting the American

69a
cause.”4 Also that year, Congress recommended that
the colonies disarm those “who are notoriously
disaffected to the cause of America.” 4 Journals of the
Continental Congress, 1774-1789 205 (1906). And, at a
minimum, Massachusetts, Pennsylvania, New Jersey,
North Carolina, and Virginia all heeded the call,
disarming those disaffected with or unwilling to take
an oath of allegiance to the American cause. Greenlee,
supra at 264-65.
¶133 Massachusetts’ responded likewise to Shays’
Rebellion a decade later. Beginning in August 1786,
armed bands of western Bay Staters revolted against
the federal government, attacking government
properties and, on February 2, 1787, engaging a
Massachusetts militia in a military confrontation. Id.
at 268-69. In response to the violent rebellion,
Massachusetts placed a variety of restrictions on those
involved, including dispossession of their firearms for
three years. 1 Private and Special Statutes of the
Commonwealth of Massachusetts from 1780-1805
145-47 (1805). Notably, the law provided that arms
given up be kept safe “in order that they may be
returned to the person or persons who delivered the
same, at the expiration of the said term of three years.”
Id. at 147. The response to Shays’ Rebellion epitomized
the type of dispossession laws that existed during the
Founding Era. They were aimed at those considered
dangerous to the government during a time of war, and
to a more limited extent, those considered dangerous to
society.
4

4 Journals of the Continental Congress, 1775-1789 18-22 (1906);
https://www.loc.gov/resource/bdsdcc.00801/?st=text.

70a
¶134 Moving forward in time, the Reconstruction
Era unsurprisingly reflects the prejudices of the age;
most arms regulations targeted slaves and freedmen.
At a minimum, Mississippi, Indiana, Maryland,
Kentucky, North Carolina, and Delaware adopted such
discriminatory laws. Greenlee, supra at 269 n.133.
Before passage of the Fourteenth Amendment,
Congress condemned these laws as a violation of the
right to keep and bear arms in the Freedmen’s Bureau
Act and the Civil Rights Act, both of 1866. McDonald,
561 U.S. at 773-75. Ratification of the Fourteenth
Amendment, which was widely viewed as
constitutionalizing the Civil Rights Act of 1866,
affirmed that states could not enact such
discriminatory laws depriving persons of their
constitutional rights. Id. at 775.
¶135 A Kansas law adopted in 1868, the same year
the Fourteenth Amendment was ratified, is quite
instructive. See Vos, 393 Wis. 2d 38, ¶64 (“Early
enactments following adoption of the constitution are
appropriately given special weight. This is because
these enactments are likely to reflect the original
public meaning of the constitutional text.” (citation
omitted)). It provides:
Any person who is not engaged in any legitimate
business, any person under the influence of
intoxicating drink, and any person who has ever
borne arms against the government of the
United States, who shall be found within the
limits of this state carrying on his person a
pistol, bowie-knife, dirk, or other deadly weapon,
shall be subject to arrest upon charge of

71a
misdemeanor, and upon conviction shall be fined
a sum not exceeding one hundred dollars, or by
imprisonment in the county jail not exceeding
three months, or both, at the discretion of the
court.
2 General Statutes of the State of Kansas 353 (1897).
This law prohibits carrying arms: (1) while “not
engaged in legitimate business”; (2) while intoxicated;
or (3) for any individual “who has ever borne arms
against” the United States. The first two restrictions
are temporarily imposed in circumstances where
individuals pose a danger of engaging in arms-related
violence. The third restriction focuses on those who
could be considered a threat to rebel against the
government because they had done so in the past.
¶136 Notably the Kansas law prohibited only the
“carrying,” or “bearing,” of arms, and not their
possession. See supra ¶15. Therefore, it did not prohibit
keeping arms in defense of one’s home. The law also
did not prohibit long guns, so it was not a complete
prohibition on carrying weapons. Greenlee, supra at
271 (citing Parman v. Lemmon, 244 P. 227, 233 (Kan.
1926) (holding shotguns were not included in a
similarly constructed statute)).
¶137 Although more historical clarity would be
welcome, the record sufficiently establishes three key
propositions regarding the original meaning of the
Second Amendment. First, possession of firearms for
self-defense and protection of one’s home as an
individual right was widely accepted as the core of the
Second Amendment’s protections. And the relative
paucity of laws prohibiting the possession or carrying

72a
of arms shows that this fundamental right was subject
to only narrow bands of restrictions. Second, in at least
some circumstances, states could permissibly restrict
the right to keep and bear arms among those posing a
danger to take up arms against the government and
those posing a danger of engaging in arms-related
violence.5 Third, states had some authority to protect
against dangerous individuals by way of class-based
arms restrictions, even when not everyone in the class
posed a clear danger of putting their arms to violent
use.
¶138 Instead of this relevant historical evidence, the
majority relies in large part on Heller’s declaration that
its opinion was not meant to cast doubt about
“longstanding prohibitions on the possession of
firearms by felons,” which were presumed lawful. 554
U.S. at 626-27. This statement reflects that Heller was
limited in its reach, and at least suggests not all such
laws would be unconstitutional. But it also does not
mean all such laws are constitutional (that question is
reserved), nor does it establish that these laws are
embedded into the original public meaning of the
Second Amendment.
¶139 To be sure, felon-dispossession laws laws have
been on the books for some time. But these laws are of
20th century vintage; they do not date back to the 18th
5

In addition to the examples provided, see United States v.
Sheldon, in 5 Transactions of the Supreme Court of the Territory
of Michigan 337, 346 (W. Blume ed. 1940) (“The constitution of the
United States also grants to the citizen the right to keep and bear
arms. But the grant of this privilege cannot be construed into the
right in him who keeps a gun to destroy his neighbor.”).

73a
or 19th centuries–the relevant time periods when the
Second Amendment was ensconced as an individual
constitutional right. See generally C. Kevin Marshall,
Why Can’t Martha Stewart Have a Gun?, 32 Harv. J.L.
& Pub. Pol’y 695 (2009) (examining the genesis of
felon-dispossession laws). In fact, no historical evidence
from the time the Second Amendment was adopted or
incorporated against the states demonstrates
broadscale dispossession of those who have committed
certain crimes. Kanter v. Barr, 919 F.3d 437, 454 (7th
Cir. 2019) (Barrett, J., dissenting) (“[A]t least thus far,
scholars have not been able to identify any such laws.”).
¶140 The first felon-dispossession laws appeared in
1923, when New Hampshire, North Dakota, and
California enacted laws forbidding felons from
possessing pistols or revolvers. Greenlee, supra at 273
& n.160. In 1927, Rhode Island went a step further,
barring those convicted of “a crime of violence” from
possessing “any firearm.” Id. at 274 (quoting 1927 R.I.
Pub. Laws 257). The federal felon-dispossession law,
meanwhile, was not enacted until the Federal Firearms
Act of 1938, and even then it only applied to those who
had committed certain violent crimes. Id. (citing
Federal Firearms Act, ch. 850, §§ 1(6), 2(f), 52 Stat.
1250, 1250-51 (1938)). It was not until a 1961
amendment to the Federal Firearms Act that federal
law first prohibited all felons nationwide from
possessing firearms regardless of their underlying
felony. Marshall, supra at 698 (citing An Act to
Strengthen the Federal Firearms Act, Pub. L. No.
87-342, 75 Stat. 757 (1961)). Wisconsin’s felondispossession law, meanwhile, dates back only to 1981.
Ch. 141, Laws of 1981.

74a
¶141 Thus, the proliferation of these laws in the last
century–far removed from the time the Second
Amendment was enshrined in the Constitution and
incorporated against the states–does not support the
notion that these laws were understood to be
permissible under the historic preexisting right to keep
and bear arms. Such laws may be common today, but
they do not enlighten the original public meaning of the
Second Amendment.
¶142 Moreover, even if such a law had existed when
the Second and Fourteenth Amendments were ratified,
it is unclear how much help that would be. This is
because the definition of a “felon” has greatly expanded
since the Founding Era. See Kanter, 919 F.3d at 458-62
(Barrett, J., dissenting). In 1791, felonies were a
narrow subset of crimes generally involving violence,
many of which warranted the death penalty. Id. at 459.
In contrast, today a person can become a felon for
possessing certain fish illegally, falsifying a boat title,
tax fraud, trafficking SNAP benefits, second offense
dialing 911 for a nonexistent emergency, adultery, and
perjury, just to name a few.6 This reality seems to
undercut any useful comparisons between the
treatment of felons in 1791 and today. But again, the
historical record reveals no evidence from the Founding
or Reconstruction Eras of the kind of broad
felon-dispossession law like the one here.
¶143 Some have justified these laws by applying a
so-called “unvirtuous citizenry” theory to the Second

6

Wis. Stat. § 29.971(1)(c); § 30.80(3m); § 71.83(2)(b)(1);
§ 946.92(3)(a); § 256.35(10)(a); § 944.16; § 946.31(1).

75a
Amendment. See Greenlee, supra at 275-85. But this
lacks any sound basis in historical fact, at least insofar
as it would apply to today’s felon-dispossession laws.
¶144 This theory is based on the accurate premise
that founding-era felons could be disqualified from
exercising certain civic rights because those rights
belonged only to virtuous citizens. See Thomas M.
Cooley, A Treatise on the Constitutional Limitations 29
(1st ed. 1868) (noting that certain groups including “the
idiot, the lunatic, and the felon, on obvious grounds,”
were “almost universally excluded” from exercising
certain civic rights). The problem with extending this
theory to the Second Amendment, however, is that the
right to keep and bear arms is not a “civic right” as that
term was understood at the founding. “Civic rights”
were understood to be just that–rights related to the
civic space, i.e., the community. They included
“individual rights that ‘require[] citizens to act in a
collective manner for distinctly public purposes.’”
Kanter, 919 F.3d at 462 (Barrett, J., dissenting)
(quoting Saul Cornell, A New Paradigm for the Second
Amendment, 22 Law & Hist. Rev. 161, 165 (2004)
(alteration in original)). Put differently, civic rights
were those rights that empowered individuals to
participate in the enterprise of self-governance–for
example, the right to vote and to serve on juries. Id.
Although these civic rights are “held by individuals,”
they are exercised “as part of the collective
enterprise[s]” of self-governance or administration of
justice. Id.
¶145 “Heller, however, expressly rejects the
argument that the Second Amendment protects a

76a
purely civic right”; it protects a personal, individual
right. Id. at 463 (citing Heller, 554 U.S. at 595 (“[T]he
Second Amendment confer[s] an individual right to
keep and bear arms.”)). Because the right to keep and
bear arms is not a civic right, it was not one of the
rights that could historically be withdrawn from
unvirtuous citizens. Indeed, there is “no historical
evidence on the public meaning of the right to keep and
bear arms indicating that ‘virtuousness’ was a
limitation on one’s qualification for the right–
contemporary insistence to the contrary falls
somewhere between guesswork and ipse dixit.”
Binderup v. Att’y Gen. U.S., 836 F.3d 336, 372 (3d Cir.
2016) (en banc) (Hardiman, J., concurring). In short,
nothing in the text or history of the Second
Amendment suggests the right to keep and bear arms
could be removed by the government because the
government deemed certain kinds of people unvirtuous.
¶146 Putting all this together, the historical record
reveals the following regarding the original public
meaning of the Second Amendment:
• The Second Amendment protects an individual
right to keep and bear arms, especially in the
defense of one’s home;
• The government nevertheless was understood to
have some ability to dispossess those who posed
a danger of engaging in arms-related violence,
often due to the risk of rebellion against the
government;
• The government had some flexibility to disarm
classes of people that posed a high risk of

77a
engaging in arms-related violence, even if
individuals within that group might themselves
not pose that danger; and
• No evidence supports the notion that felondispossession laws of the type at issue here are
“longstanding” in the sense that they were
contemplated when the right to keep and bear
arms was safeguarded in the Constitution.
¶147 With this history in mind, we turn to the task
of determining what legal framework or test best
effectuates the Second Amendment’s original public
meaning.
D. An Implementing Doctrine
¶148 The application of these principles to the case
before us requires some additional work. We need some
judicially enforceable legal framework, or
implementing doctrine, to effectuate the constitutional
provision’s original public meaning. See supra ¶¶11-12.
¶149 For better or for worse, both federal courts and
this court have created and adopted a tiers of scrutiny
approach for evaluating some types of constitutional
claims, especially those dealing with fundamental
rights. Courts typically employ three tiers of judicial
scrutiny: rational basis, intermediate scrutiny, and
strict scrutiny–although these tiers sometimes work
more like a sliding scale. Some have criticized this
approach, not without merit.7 But it has the virtue of
7

E.g., R. George Wright, What if All the Levels of Constitutional
Scrutiny Were Completely Abandoned?, 45 U. Mem. L. Rev. 165
(2014) (advocating for abolition of the tiers of scrutiny).

78a
putting the State to its proof when government
attempts to regulate in areas the Constitution
generally places outside the permissible bounds of
regulation. While a better analytical tool may be
devised, I accept this general construct in this case as
a reasonable approach to the tricky problem of applying
the text of the Constitution to various kinds of
regulations touching the Second Amendment.
¶150 The United States Supreme Court has
described the right to keep and bear arms as “among
those fundamental rights necessary to our system of
ordered liberty.” McDonald, 561 U.S. at 778. This is
consistent with its inclusion in the Constitution
alongside other basic, pre-existing rights, including the
freedoms of speech and religion. Generally, when the
government restricts the exercise of rights deemed
fundamental, courts apply strict scrutiny. See, e.g.,
State v. Post, 197 Wis. 2d 279, 302, 541 N.W.2d 115
(1995). To survive a challenge, the “statute must
further a compelling state interest and be narrowly
tailored to serve that interest.” Id. This burden rests on
the state, not the challenger, and will rarely succeed.
¶151 An honest evaluation of the historical record
regarding the Second Amendment, however, suggests
strict scrutiny may not be appropriate for all
regulations affecting the right it protects. We must
match the doctrine to the scope of the right, and do so
fairly. Prohibiting the possession of firearms altogether
(especially in the home, as with Roundtree), cuts on its
face right to the core of the Second Amendment right.
That said, as best as I can discern from the historical
evidence now available and summarized above, the

79a
state was nevertheless understood to have some
authority to dispossess those who posed a danger of
engaging in arms-related violence, and to do so in ways
that were at least somewhat over- or under-inclusive.
¶152 As explained above, in the early English
tradition of protecting the right to keep and bear arms,
the government dispossessed an entire class of citizens
based on the fear they would take up arms in violent
rebellion against the Protestant crown. Surely, not
every member of that class was predisposed to violence
against the government, yet the class as a whole was
restricted. Similarly, during the Founding Era, states
broadly dispossessed those unwilling to take an oath to
support the cause of independence or otherwise
sympathetic to British rule. Surely not everyone
dispossessed under those laws presented a danger to
public safety. Even the 1868 Kansas law that
dispossessed anyone “who has ever borne arms against
the government of the United States” cannot be said to
be narrowly tailored in the context of the Civil War’s
aftermath. Former confederate soldiers presumably
comprised a not insignificant class of people in Kansas,
many of whom no longer would have posed a significant
risk of violence simply by virtue of their past war
efforts on behalf of the Confederacy.
¶153 As a starting point, then, the individual right
to keep and bear arms, especially for the protection of
one’s home, is a fundamental and individual right that
should be treated as such. But where there is a
significant risk of arms-related violence, government
retains some authority to restrict this right in ways
that are not narrowly drawn; it may be over- or

80a
under-inclusive. Even though restrictions on the
individual and fundamental right to keep and bear
arms should ordinarily be subject to the highest
judicial scrutiny, where the risk of gun-related violence
is at stake, a slightly more deferential standard is
appropriate and in keeping with the historical record.
¶154 Overly-generous deference to the government,
however, would not be appropriate, especially since the
text generally carves this right out as an impermissible
area of government interference. The State must bear
the burden in this context to show it is acting within
constitutional limits, not the other way around. When
it comes to individuals who pose a danger of using a
firearm to commit violence, however, strict scrutiny
would seem to demand too much of the government in
ways that do not capture the historical understanding
of the right. A more appropriate analysis in this context
is therefore a heightened scrutiny that still puts the
government to its proof. Among the tools available,
intermediate scrutiny best fits the bill.8
8

I endorse the majority of Justice Rebecca Bradley’s dissent.
However, I believe something less than strict scrutiny is more in
keeping with the historical record–and therefore the original public
meaning–for the type of restriction here. I also agree with the
majority that our decision in Mayo v. Wisconsin Injured Patients
and Families Compensation Fund, 2018 WI 78, 383 Wis. 2d 1, 914
N.W.2d 678, is inapplicable. Whatever analytical framework this
court applies to equal protection cases under the Wisconsin
Constitution is not, in my view, relevant to the framework we
should employ to a claim under the Second Amendment to the
federal Constitution. The original public meaning inquiry should
dictate the appropriate legal test, regardless of the tests this court
has employed in analyzing cases under different constitutional
provisions.

81a
¶155 This approach has parallels in other areas of
constitutional law. The Supreme Court applies
intermediate scrutiny in some other circumstances
where fundamental rights are implicated. In the First
Amendment context, for example, the Court analyzes
content-based restrictions on speech under strict
scrutiny, but it applies a form of intermediate scrutiny
to time, place, or manner regulations. Compare Texas
v. Johnson, 491 U.S. 397, 412 (1989) (applying “the
most exacting scrutiny” to a flag-burning statute) with
United States v. O’Brien, 391 U.S. 367, 376-77 (1968)
(applying intermediate scrutiny to uphold a defendant’s
conviction for burning a draft card); McCullen v.
Coakley, 573 U.S. 464, 486 (2014) (applying
intermediate scrutiny to strike down a statute
establishing “buffer zones” around facilities where
abortions are performed).
¶156 Intermediate scrutiny places the burden on
the State to show that the law at issue advances an
important governmental interest and is substantially
related to that interest. Gerhardt v. Estate of Moore,
150 Wis. 2d 563, 570-71, 441 N.W.2d 734 (1989). Even
when the governmental interest is important, a law
survives intermediate scrutiny only if it “does not
burden substantially more [protected activity] than
necessary to further those interests.” Turner Broad.
Sys., Inc. v. FCC, 520 U.S. 180, 189 (1997). As
now-Justice Barrett explained in her dissent in a case
challenging this same Wisconsin law, the fit between
the means and the ends must be a close one. Kanter
919 F.3d at 465 (Barrett, J., dissenting) (“‘[A] very
strong public-interest justification and a close
means-ends fit’ is required before [the defendant] may

82a
be constitutionally subject to the United States and
Wisconsin dispossession statutes.”).
¶157 It’s worth emphasizing again that the burden
when applying intermediate scrutiny is on the State to
prove that the restriction advances an important
interest and is substantially related to that interest.
State v. Baron, 2009 WI 58, ¶14, 318 Wis. 2d 60, 769
N.W.2d 34. Every federal circuit to consider this matter
agrees. See, e.g., Binderup, 836 F.3d at 353; Tyler v.
Hillsdale Cnty. Sherriff’s Dept., 837 F.3d 678, 693 (6th
Cir. 2016); Heller v. District of Columbia, 670 F.3d
1244, 1258 (D.C. Cir. 2011). As one court put it, “Strict
and intermediate scrutiny (which we collectively refer
to as ‘heightened scrutiny’ to distinguish them from the
far less demanding rational-basis review) in effect set
up a presumption of invalidity that the defendant must
rebut.” Hassan v. City of New York, 804 F.3d 277, 299
(3d Cir. 2015).
¶158 To summarize, where the government
purports to act in ways the people have made clear in
their constitution are outside the power granted, it is
not the citizen who must show the government has
acted unconstitutionally; it is the government that
must demonstrate it has authority to do what it wishes.
The Constitution reflects a presumption that
government action in that zone is unlawful unless
proven otherwise. The historic right to keep and bear
arms is an individual and fundamental right. But the
government has broader authority to restrict the right
of those who would use arms for gun-related violence.
Intermediate scrutiny–requiring a substantial
connection to the important governmental interest–

83a
appears to best capture and secure the right in
accordance with its original public meaning where
government acts to protect against those who pose a
danger of engaging in gun-related violence.
II. APPLICATION
¶159 Roundtree challenges the constitutionality of
Wisconsin’s felon-dispossession law as applied to him.9
Wisconsin Stat. § 941.29(1m)(a) provides: “Any person
who possesses a firearm is guilty of a Class G felony if
any of the following applies: (a) The person has been
convicted of a felony in this state.” “In this context,
‘possess’ . . . simply ‘means that the defendant
knowingly had actual physical control of a firearm.’”
State v. Black, 2001 WI 31, ¶19, 242 Wis. 2d 126, 624
N.W.2d 363. Thus, for anyone convicted of a felony,
§ 941.29(1m)(a) operates as a lifetime ban on
possessing firearms for self-defense, hunting, or any
other ordinarily lawful purpose.
¶160 Roundtree brings two types of as-applied
challenges. First, he argues that the State may not
constitutionally dispossess him because the State has
not shown that he personally poses a danger of
engaging in gun-related violence. To support this
challenge, Roundtree notes that his underlying felony,
besides being nonviolent, occurred more than ten years

9

As we have explained before, “Challenges to the constitutionality
of a statute are generally defined in two manners: as-applied and
facial.” Vos, 393 Wis. 2d 38, ¶37. Where “[a]s-applied challenges
address a specific application of the statute against the challenging
party,” a facial challenge argues a statute “operates
unconstitutionally in all applications.” Id., ¶¶37-38.

84a
ago, and that nothing he has done since suggests he
poses any heightened risk of using a gun violently. But
as we have discussed, the historical record suggests
states may, consistent with the right secured by the
Second Amendment, dispossess some people on a
somewhat overbroad class-wide basis. This is so even
if some individual members of the class demonstrate
their personal characteristics are inconsistent with a
propensity for violence. Moreover, the challenged law
criminalizes firearm possession for committing a
felony, not for any of Roundtree’s personal
characteristics or other actions. In other words, the
State has charged Roundtree with the crime of illegally
possessing a firearm on one basis only–his prior felony
conviction. Therefore, a challenge focused on
Roundtree’s personal risk of danger is off the mark.
¶161 Roundtree also argues the State may not
dispossess him simply for belonging to either the class
of people that committed any felony or the class of
people that committed the same felony as him.
¶162 It is indisputable that public safety is a
compelling governmental interest. See State v. Cole,
2003 WI 112, ¶23, 264 Wis. 2d 520, 665 N.W.2d 328.
This interest is also well-illustrated in the history of
the Second Amendment. Wisconsin Stat.
§ 941.29(1m)(a) therefore advances an important
government objective.
¶163 Thus, we turn to the second prong of the
intermediate scrutiny analysis: whether a law that
dispossesses all felons is substantially related to the
government’s interest in preventing gun-related
violence. And again, it’s worth repeating that the State

85a
bears the burden to show a close and substantial
connection exists. The State tries to meet its burden by
pointing us to two studies.10
¶164 The study most heavily relied on by the State
is a 2016 study on recidivism prepared by the
Wisconsin Department of Corrections. See Joseph R.
Tatar II & Megan Jones, Recidivism After Release from
Prison, Wisconsin Dep’t of Corrections (August 2016)
(hereinafter “DOC Study”). In its analysis, that study
grouped all offenses into four categories: violent
offenses, property offenses, drug offenses, and public
order offenses. Id. at 14. Relevant here, the public order
offense category included failure to pay child support
(120 days+) in addition to crimes like operating while
intoxicated, bail jumping, and operating a vehicle to
elude an officer. Id. The State primarily relies on the
study’s conclusion that for those who committed a prior
public order offense, 21.4 percent of recidivists in that
category went on to commit a violent offense within
three years. The remaining 78.6 percent of crimes
committed within three years by recidivists whose
original incarceration was for a public order offense
committed non-violent offenses (either a drug offense,
property offense, or another public order offense). Id.

10

The majority, in a block quote to the majority opinion in Kanter
v. Barr, 919 F.3d 437, 449 (7th Cir. 2019), notes two additional
studies that are not discussed by the State in its briefing. Majority
op., ¶50. Because it is the State’s burden to satisfy the substantial
relationship prong of intermediate scrutiny, its failure to discuss
these studies should preclude the majority’s consideration of them.
This court should not attempt to prove the State’s case for it.

86a
¶165 The State erroneously cites this study for a
proposition it most certainly does not support. It
characterizes the DOC Study as concluding that 21.4
percent of all those released after committing a public
order offense went on to commit a violent offense.
That’s simply not what the study says, and it is an
egregious error in light of its almost singular
prominence in the State’s effort to prove the requisite
connection. This 21.4 percent is not the percentage of
all public order offenders who, after release, committed
violent crimes. Rather, it considers only those who
committed another crime after committing a public
order offense, and conveys the percentage of those
public order offense recidivists who committed a violent
crime. In other words, this 21.4 percent figure has
nothing to do with, and makes no reference to, those
who never recidivate after committing a public order
offense. It should be obvious, then, that this statistic
offers no assistance in establishing the relationship
between past crime and a person’s risk to commit
gun-related violent crime in the future, which is the
core inquiry of the intermediate scrutiny analysis.
¶166 The second study offered by the State surveys
“5,923 authorized purchasers of handguns in California
in 1977,” 3,128 of whom had at least one prior
misdemeanor conviction at the time of purchase. Garen
J. Wintemute et al., Prior Misdemeanor Convictions as
a Risk Factor for Later Violent and Firearm-Related
Criminal Activity Among Authorized Purchasers of
Handguns, 280 J. Am. Med. Ass’n 2083, 2083 (1998)
(hereinafter “Wintemute Study”). Specifically, the State
points to that study’s conclusion that “even handgun
purchasers with only 1 prior misdemeanor conviction

87a
and no convictions or offenses involving firearms or
violence were nearly 5 times as likely as those with no
prior criminal history to be charged with new offenses
involving firearms or violence.” Id. Consider me
unsurprised that people with criminal records who
purchase handguns are more likely to commit future
crime than those without a criminal record. But this
correlation hardly demonstrates the close and
substantial relationship required to justify this law.
While those with a prior criminal record are surely
more likely to commit future crime, the vast majority
of people in the study who had prior criminal records
did not commit a new violent offense. And the State
must demonstrate that dispossessing the entire class
that it chose will substantially further the State’s
efforts to remediate the risk of gun-related violence.11
This study falls far short of demonstrating why those
convicted of illegal possession of certain fish, tax fraud,
or failure to pay child support should be dispossessed
in the interest of preventing gun-related violent crime.
¶167 The State’s correlation-centric reasoning–that
Wis. Stat. § 941.29(1m)(a) substantially furthers the
fight against gun-related violence simply by virtue of a
correlation between past crime of any sort and future
violent crime–does not meet the mark. Playing this
logic out further, suppose those who previously
declared bankruptcy are modestly more likely to

11

Importantly, the Wintemute Study does not actually analyze
felons as a class because generally, felons will not be authorized
handgun purchasers.

88a
commit violent crime in the future?12 Or those who do
not have a bachelor’s degree by the time they are 25?13
How about those who were born out of wedlock,14 or
who fall below the poverty line?15 Taking the State’s
argument on its face, dispossession laws barring these
classes of persons (which impact not a small amount of
the population) would survive as long as the State
could prove that these features are correlated with an
increased risk of committing violent crime with a
firearm. Modest correlation, however, is simply not
enough. And at best, that is all the State has here.

12

Gercoline van Beek, Vivienne de Vogel & Dike van de Mheen,
The Relationship Between Debt and Crime: A Systematic and
Scoping Review, European J. of Probation, Oct. 2020, at 1 (showing
“a strong association between debt and crime whereby debt is a
risk factor for crime”).
13

Lance Lochner & Enrico Moretti, The Effect of Education on
Crime: Evidence from Prison Inmates, Arrests, and Self-Reports,
94 The Am. Econ. Rev. 155, 156-57 (2004) (“Instrumental variable
estimates reveal a significant relationship between education and
incarceration . . . .”).
14

Todd D. Kendall & Robert Tamura, Unmarried Fertility, Crime,
and Social Stigma, 53 J.L. & Econ. 185, 213 (2010) (“[A]n increase
of 10 nonmarital births per 1,000 live births is associated with an
increase in future murder and property crime rates between 2.4
and 4 percent.”).
15

U.S. Dep’t of Justice, NCJ 248384, Household Poverty and
Nonfatal Violent Victimization, 2008-2012, 1 (2014) (“Persons in
poor households had a higher rate of violence involving a firearm
(3.5 per 1,000) compared to persons above the FPL (0.8-2.5 per
1,000).”).

89a
¶168 Including all felonies in Wis. Stat.
§ 941.29(1m)(a)’s reach, no matter how violent and no
matter how serious, is “wildly overinclusive.” Kanter,
919 F.3d at 466 (Barrett, J., dissenting). It is an
extraordinarily broad class that lacks a substantial
relationship to the harm it seeks to remedy. Id. The fit
between means and ends must be close–not perfect, but
close. The State’s evidence is far from showing that
dispossessing all felons forever bears a close or
substantial relationship to remediating the danger of
gun-related violence.
¶169 If the class of all felons is too broad, perhaps
the State could nonetheless show that criminalizing
possession of firearms based on the particular
underlying felony survives constitutional scrutiny. But
the State does not even purport to argue that those
who have failed to pay child support or committed
other analogous crimes pose any risk of committing
gun-related violence as a consequence of their
underlying felony, nor do its studies support that
conclusion. The State therefore fails to meet its burden
of proof here as well.
¶170 The important goal of protecting against
gun-related violence does not seem to be furthered by
dispossessing those who have not committed a violent
act with a gun, and indeed have not committed a
violent act at all. The State does not meet this
challenge head on; it has not met its burden to prove a
close and substantial relationship between the means
and ends of the prohibition. Accordingly, Roundtree’s
conviction for possession of a firearm, a criminal
prohibition triggered because he was convicted of

90a
failure to pay child support for 120 days, violates the
Second Amendment and is unconstitutional.
III. CONCLUSION
¶171 We are bound to interpret and apply the
Constitution as written. A careful study of the history
surrounding the right to keep and bear arms as
protected by the Second Amendment demonstrates that
while the right to keep arms in the home for
self-defense is within the core of the right, some
class-based restrictions on firearm possession are
permissible to protect against the danger of gun-related
violence. Felon-dispossession laws may be permissible
under this historical protection, but only where the
State shows the restriction substantially advances the
State’s interest in protecting against gun-related
violence. Here, however, the State did not carry its
burden to show that Wisconsin’s dispossession law
satisfies this standard as applied to Roundtree.
Therefore, his conviction violates the Second
Amendment. I respectfully dissent.

91a

APPENDIX B
COURT OF APPEALS
DECISION
DATED AND FILED
[Filed: April 4, 2019]
Sheila T. Reiff
Clerk of Court of Appeals
Appeal No. 2018AP594-CR
Cir. Ct. No. 2015CF4729
STATE OF WISCONSIN IN COURT OF APPEALS
DISTRICT I
__________________________________________________
STATE OF WISCONSIN,
PLAINTIFF-RESPONDENT,
V.

LEEVAN ROUNDTREE,
DEFENDANT-APPELLANT.
__________________________________________________
APPEAL from a judgment and an order of the
circuit court for Milwaukee County: WILLIAM S.
POCAN and DAVID A. HANSHER, Judges. Affirmed.
Before Lundsten,
Fitzpatrick, JJ.

P.J.,

Kloppenburg

and

92a
Per curiam opinions may not be cited in any
court of this state as precedent or authority,
except for the limited purposes specified in WIS.
STAT. RULE 809.23(3).
¶1 PER CURIAM. Leevan Roundtree, by counsel,
appeals a judgment convicting him of possession of a
firearm by a felon. He also appeals an order denying
his postconviction motion.1 On appeal, Roundtree
argues that the felon-in-possession statute is
unconstitutional as applied to him. For the reasons
discussed below, we reject this argument, and affirm.
BACKGROUND
¶2 Roundtree was prohibited from possessing a
firearm due to his 2003 felony conviction of two counts
of failure to pay child support. Roundtree was charged
under the felon-in-possession statute, WIS. STAT.
§ 941.29(2) (2013-14),2 after police found a revolver and
bullets in his home pursuant to a search warrant. He
pied guilty to one count of felon in possession of a
firearm and was sentenced to 18 months of initial
confinement and 18 months of extended supervision.

1

The Honorable William S. Pocan presided over the plea hearing
and entered the judgment of conviction. The Honorable David A.
Hansher entered the order denying Roundtree’s postconviction
motion.
2

All references to the Wisconsin Statutes are to the 2013-14
version unless otherwise noted. Pursuant to 2015 Wis. Act 109, § 8,
WIS. STAT.§ 941.29(2) was repealed. The substance of the
repealed subsection is now found in § 941.29(1m)(a) (2017-18).

93a
¶3 Roundtree filed a postconviction motion, arguing
that the felon-in-possession statute is unconstitutional
as applied to him, since his felony conviction was for a
nonviolent crime, failure to pay child support. The
circuit court denied the motion on the basis that
Roundtree waived the right to pursue a constitutional
challenge when he entered his guilty plea. Roundtree
now appeals.
STANDARD OF REVIEW
¶4 The constitutionality of a statute is a question of
law subject to de novo review on appeal. State v.
Wood, 2010 WI 17, ¶15, 323 Wis. 2d 321, 780 N.W.2d
63. A party challenging the constitutionality of a
statute, whether facially or as applied, must overcome
a presumption of constitutionality and must prove that
the statute is unconstitutional beyond a reasonable
doubt. Id.
DISCUSSION
¶5 Roundtree makes two arguments on appeal.
First, he argues that Wisconsin’s lifetime firearm ban
for all felons, as codified in WIS. STAT. § 941.29(2), is
unconstitutional as applied to him, a person convicted
of failure to pay child support. Second, Roundtree
argues that the guilty plea waiver rule does not bar
him from pursuing his as-applied constitutional
challenge. We need not decide the second issue
because, regardless of whether Roundtree forfeited the
constitutional argument by entering a guilty plea, we
conclude that the argument fails on its merits.
¶6 When a statute is unconstitutional on its face, it
is ‘’void ‘from its beginning to the end.”’ Wood, 323 Wis.

94a
2d 321, ¶13 (quoted source omitted). A party raising a
facial challenge to a statute must show that the law
“cannot be enforced ‘under any circumstances.”’ Id.
(quoted source omitted). In an as-applied challenge, the
court “assess[es] the merits of the challenge by
considering the facts of the particular case.” Id. If a
party makes a showing that his constitutional rights
were actually violated, “the operation of the law is void
as to the party asserting the claim.” Id.
¶7 Roundtree argues that Wisconsin’s lifetime
firearm ban for felons is unconstitutional as applied to
him because he was convicted of failure to pay child
support, a nonviolent felony. As we explain,
Roundtree’s notion that his particular nonviolent felony
matters is incorrect. Rather, it is settled law that the
firearm ban applies regardless of the defendant’s
particular felony.
¶8 In State v. Pocian, 2012 WI App 58, 341 Wis.
2d 380, 814 N.W.2d 894, the defendant’s prior felony
conviction was for writing forged checks. Id., ¶2. The
defendant argued that WIS. STAT. § 941.29 was
unconstitutional both on its face and as applied to him.
Pocian, 341 Wis. 2d 380, ¶¶2, 13. In arguing that the
statute was unconstitutional as applied, the defendant
emphasized that his prior felony conviction was for a
nonviolent offense and, thus, there was no public safety
rationale for depriving him of his right to keep and
bear arms under the Second Amendment to the United
States Constitution. Id., ¶13. This court rejected the
defendant’s argument and held unequivocally ‘’that the
ban on felons possessing firearms is constitutional and
that the ban extends to all felons.” Id., ¶2.

95a
¶9 This court rejected a similar as-applied
constitutional challenge to the felon-in-possession
statute in State v. Culver, 2018 WI App 55, 384 Wis.
2d 222, 918 N.W.2d 103, review denied, 2019 WI 8, 385
Wis. 2d 206, 923 N.W.2d 165. In that case, the
defendant argued that the felon-in-possession statute
was unconstitutional as applied because it does not
distinguish violent felonies from nonviolent felonies,
such as the defendant’s OWI. Id., ¶41. The court
concluded that, despite the distinctions the defendant
made between his own crime of OWi and the forgery
crime in Pocian, Pocian was controlling. Culver, 384
Wis. 2d 222, ¶46. The Culver court stated:
We plainly concluded that the ban on both
violent and nonviolent felons is constitutional,
Pocian, 341 Wis. 2d 380, ¶12, and we plainly
must follow that holding: “[T]he court of appeals
may not overule, modify or withdraw language
from a previously published decision of the court
of appeals.” Cook v. Cook, 208 Wis. 2d 166, 190,
560 N.W.2d 246 (1997).
Id.
¶10 Like the defendant in Culver, Roundtree
attempts to distinguish the factual circumstances of his
underlying felony and his felon-in-possession conviction
from those in Pocian. Roundtree also argues that this
court should not consider Pocian controlling because
to do so would disregard ‘’the very nature of as-applied
challenges.” He asserts that, because this case involves
an as-applied challenge to the constitutionality of the
felon-in-possession statute as to a particular person
under particular circumstances, Pocian’s holding

96a
neither precludes his argument nor resolves the issue
raised. We disagree.
¶11 Roundtree’s argument fails for the same reason
the Culver defendant’s argument failed. Like
Roundtree, the defendant in Culver argued that it
matters what particular nonviolent felony is the subject
of the underlying conviction. We rejected that
proposition, stating that ‘’we plainly must follow”
Pocian. See Culver, 384 Wis. 2d 222, ¶46. Here too,
we are bound by Pocian, and, for that matter, Culver.
¶12 In sum, it is undisputed that Roundtree is a
felon. The ban on felons possessing firearms is
therefore constitutional as to him.
By the Court.–Judgment and order affirmed.
This opinion will not be published. See WIS. STAT.
RULE 809.23(1)(b)5. (2017-18).

97a

APPENDIX C
STATE OF WISCONSIN
CIRCUIT COURT
Branch 42
MILWAUKEE COUNTY
[Filed: March 8, 2018]
FILED
03-08-2018
John Barrett
Clerk of Circuit Court
__________________________________________________
STATE OF WISCONSIN,
Plaintiff,
vs.

Case No. 15CF004729

LEEVAN ROUNDTREE,
Defendant.
__________________________________________________
DECISION AND ORDER
DENYING MOTION FOR POSTCONVICTION
RELIEF
__________________________________________________
On February 24, 2017, the defendant by his
attorney filed an as-applied constitutional challenge to
his conviction for felon in possession of a firearm under
section 941.29(2), Stats. The motion was assigned to

98a
the predecessor to this court’s current felony calendar,
the Hon. William Paean, who ordered a briefing
schedule.1 After the briefs were filed, Judge Pocan
entered a written order dated April 20, 2017, noting
that the general rule in Wisconsin is that a guilty plea
waives a defendant’s right to raise an as-applied
constitutional challenge to the validity of a criminal
statute, citing State v. Molitor, 210 Wis. 2d 415 (Ct.
App. 1997) and State v. Olson, 127 Wis. 2d 412 (Ct.
App. 1985). Nevertheless, the court held a decision on
the defendant’s motion in abeyance pending a decision
by the United States Supreme Court in Class v.
United States,2 since the question presented in that
case was whether a guilty plea bars a criminal
defendant from later appealing his conviction on the
ground that the statute of conviction violates the
Constitution.
Class involved a facial challenge to a federal
firearms statute under the Second Amendment and the
Due Process Clause. Class raised his arguments in a
motion to dismiss the indictment. After the district
court dismissed his claims, Class pled guilty to the
charged offense. The district court accepted the plea
and sentenced him. Shortly thereafter, Class
reasserted his constitutional arguments on direct
appeal. The Court of Appeals held that Class could not

1

Due to the system of judicial rotation in Milwaukee County,
Judge Pocan is no longer assigned to the criminal division, and
therefore, the case has been assigned to this court as the successor
to his former felony calendar.
2

No. 16-424, decided February 21, 2018.

99a
do so because, by pleading guilty, he had waived his
constitutional claims. In a 6 to 3 decision, the Supreme
Comi held that a guilty plea by itself does not bar a
federal criminal defendant from challenging the
constitutionality of the statute of conviction on direct
appeal. Significantly, Class did not involve an asapplied constitutional challenge to the statute of
conviction, as here, and nothing in that decision calls
into question the application of Wisconsin’s guilty plea
waiver rule to the defendant’s as-applied constitutional
challenge. Consequently, the court finds that by
entering a guilty plea in this case, the defendant
waived his constitutional challenge to his conviction
under section 941.29(2), Stats.
Anticipating application of the guilty plea waiver
rule, the defendant argues that the court should
decline to apply the rule if it finds that the issues
raised are of state-wide importance or that resolution
will serve the interests of justice. Judge Pocan was not
persuaded to make such a finding, and neither is this
court. First, there has arguably been a resolution of the
issues raised. In State v. Pocian, 341 Wis. 2d 380 (Ct.
App. 2012), the defendant argued that section 941.29,
Stats., was unconstitutional as applied to him because
his prior felony conviction was for a nonviolent offense,
and thus, there was no public safety rationale for
depriving him of his right to keep and bear arms.3 The
Court of Appeals recognized that the defendant had not
been convicted of a violent offense, but his conduct

3

Pocian and a friend wrote and cashed nearly $1,500 worth of
stolen checks. The defendant was convicted of three counts of
uttering a forged writing.

100a
involved physically taking his victim’s property, which
the court found to be substantially related to the
important governmental objective of public safety. Id.
at 389. The court also observed that the right to bear
arms was tied to the concept of a virtuous citizenry and
that the government could disarm “unvirtuous
citizens.” Id. (citing United States v. Yancey, 621
F.3d 681, 684-85). The defendant in this case argues
that he was convicted of failure to pay child support,
which does not implicate public safety in the way that
physically taking the victim’s property did in Pocian.
Even assuming that to be true, there is nothing
virtuous about a person who fails to fulfill his courtordered child support obligations. The State has a
compelling interest in requiring parents to support
their children. See State v. Oakley, 245 Wis. 2d 447,
456-58 (2001). The legislature has detern1ined that a
person who intentionally fails to pay child support is
guilty of a felony, and it is well-established that
convicted individuals (felons in particular) do not enjoy
the same constitutional guarantees as citizens who
have not violated the law. Id. at 466. Given the holding
in Pocian, the court is not persuaded that the instant
case raises an issue of state-wide importance which
would warrant putting aside the guilty plea waiver
rule.
THEREFORE, IT IS HEREBY ORDERED that
the defendant’s motion for postconviction relief is
DENIED.

101a
Electronically signed by Judge David A.
Hansher
____________________________________________
Circuit Court Judge/Circuit Court
Commissioner/Register in Probate
Circuit Court Judge
____________________________________________
Title (Print or Type Name if not eSigned)
03/08/2018
____________________________________________
Date

